<html>
<title> - IG REPORT: THE DEPARTMENT OF JUSTICE'S OFFICE OF THE INSPECTOR GENERAL EXAMINES THE FAILURES OF OPERATION FAST AND FURIOUS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
IG REPORT: THE DEPARTMENT OF JUSTICE'S OFFICE OF THE INSPECTOR GENERAL 
          EXAMINES THE FAILURES OF OPERATION FAST AND FURIOUS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2012

                               __________

                           Serial No. 112-186

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
76-369                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e384938ca3809690978b868f93cd808c8ecd">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania
VACANCY

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2012...............................     1

                               WITNESSES

Mr. Michael E. Horowitz
    Oral Statement...............................................     6
    Written Statement............................................     8

                                APPENDIX

The Honorable Darrell Issa, Chairman, Hearing Preview Statement..    72
The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, Opening Statement...........................    74
Emails on ATF GunRunner..........................................    76
Revised Grassley letter..........................................    78
Reponse letter from Michael E. Horowitz..........................    79


IG REPORT: THE DEPARTMENT OF JUSTICE'S OFFICE OF THE INSPECTOR GENERAL 
          EXAMINES THE FAILURES OF OPERATION FAST AND FURIOUS

                              ----------                              


                     Thursday, September 20, 2012,

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:36 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Burton, Platts, Chaffetz, 
Walberg, Lankford, Amash, Gosar, Labrador, Meehan, DesJarlais, 
Gowdy, Ross, Farenthold, Kelly, Cummings, Towns, Maloney, 
Norton, Kucinich, Clay, Lynch, Connolly, Quigley, Davis, 
Braley, and Murphy.
    Also Present: Representatives Adams and Barber.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Robert Borden, Majority General Counsel; Molly Boyl, Majority 
Parliamentarian; Lawrence J. Brady, Majority Staff Director; 
Sharon Casey, Majority Senior Assistant Clerk; Steve Castor, 
Majority Chief Counsel, Investigations; John Cuaderes, Majority 
Deputy Staff Director; Carlton Davis, Majority Counsel; Jessica 
L. Donlon, Majority Counsel; Kate Dunbar, Majority Legislative 
Assistant; Linda Good, Majority Chief Clerk; Christopher Hixon, 
Majority Deputy Chief Counsel, Oversight; Henry J. Kerner, 
Majority Senior Counsel for Investigations; Beverly Britton 
Fraser, Minority Counsel; Kevin Corbin, Minority Deputy Clerk; 
Ashley Etienne, Minority Director of Communications; Susanne 
Sachsman Grooms, Minority Chief Counsel; Devon Hill, Minority 
Staff Assistant; Carla Hultberg, Minority Chief Clerk; Adam 
Koshkin, Minority Staff Assistant; Una Lee, Minority Counsel; 
Dave Rapallo, Minority Staff Director; Donald Sherman, Minority 
Counsel; and Carlos Uriarte, Minority Counsel.
    Chairman Issa. The Committee will come to order.
    The Oversight Committee exists to secure two fundamental 
principles: first, Americans have a right to know that the 
money Washington takes from them is well spent and, second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold government accountable to taxpayers, because 
taxpayers have a right to know what they get from their 
government. It is our job to work tirelessly in partnership 
with citizen watchdogs to deliver the facts to the American 
people and bring genuine reform to the Federal bureaucracy. 
This is our mission.
    Today we are dealing with exactly that kind of a situation. 
The IG's report, issued yesterday, began with watchdogs and 
whistleblowers making us aware of a fatally flawed operation 
known as Fast and Furious.
    Before I begin with my opening statement in earnest, I want 
to first take time to thank Mr. Horowitz. On behalf of the 
Committee on Oversight and Government Reform, I want to 
congratulate him on, in fact, delivering an extremely 
comprehensive, strong, and independent report.
    Mr. Horowitz is not new to the Department, but he is new to 
this job, and, as inspector general, a Senate-confirmed 
nomination of March 29th; and when you were sworn in on August 
16th we all asked the question can you pick up and do this kind 
of a job on such a monumental task that had already languished 
for a period of time before your entrance. Yesterday you proved 
to both sides of the aisle that you could, and I want to 
personally thank you.
    I note that, in fact, IGs serve a purpose that, in fact, we 
do not get and have not gotten from any administration. If not 
for the 74 IGs and the 12,000 men and women that work for them, 
the level of transparency, accountability over waste, fraud, 
abuse of power, abuse of discretion, and the like would not be 
possible. This Committee, more than any other in the Congress, 
relies on their work, and yesterday we were not disappointed.
    The 471-page report released yesterday is a huge step 
forward toward restoring the public faith in the Department of 
Justice. I was impressed with the professionalism and 
thoroughness and scope of the report. I know, having been, only 
the day before, with Brian Terry's family in Arizona, where we 
dedicated the Border Patrol station he worked out of before his 
untimely murder in 2010, that they too undoubtedly were 
impressed that a great deal of the closure they wanted by 
responsible parties at all levels was met yesterday.
    The conclusions after 19 months of hard work, of course, 
are greater than some would want and fall short of what others 
would want. They cannot, by definition, bring complete closure 
because even the IG, in his report, still has some questions. 
There were some individuals and some documents that are not yet 
available. But like any document, you have to, at some point, 
cut it off, come as you are and bring what you have. I think 
this was the appropriate time. I am particularly pleased that 
we waited an additional week to allow for materials that 
otherwise might not have been in the report.
    This Committee has had a difficult relationship with 
Justice, much of it because the attorney general, no matter how 
many times we asked, no matter how many times we subpoenaed, no 
matter how many meetings our staff had, were unable to get a 
level of cooperation necessary even to the information that the 
IG received. I hope in the next Congress, whoever sits in my 
chair will face an administration that understands that 
openness to Congress, openness to the Freedom of Information 
Act, and particularly openness to the inspector general's 
offices is critical if the American people are to have 
confidence in their government.
    Much of what is in the report, but not the main subject of 
the report, has to do with the February 4th, 2011, letter in 
which, admittedly now, Justice Department falsely stated that 
in Operation Fast and Furious guns did not walk. As I have 
often said since that time, the only way that statement could 
be true is if you believed, for guns to walk, they had to have 
legs.
    Operation Fast and Furious is a poster child for what you 
don't do with deadly weapons. You don't lose track of them. You 
don't allow more and more and more of them to go while, in 
fact, you're already seeing the effects of those weapons 
killing people in Mexico. And let's make no mistake, weapons 
had already been found at deadly scenes of crimes in Mexico 
before Fast and Furious shut down. Only the tragic loss of 
Brian A. Terry brought an end to Fast and Furious.
    Although this report will not bring a complete end to the 
need for us to work with Justice to bring genuine reform to 
their process, it goes a long way towards that. I will 
particularly note that I am pleased that in some cases the 
executive privilege, invalidly claimed by the President of the 
United States, was not asserted in this discovery. Some 
materials contained in this report do help us because they are 
in fact many of the items that we wish we had received, in some 
cases were told we received, but in fact we later found were 
provided to the IG and not to us.
    The conclusions in any report by an IG are in fact 
respectful and less than conclusions as to what management must 
do. But already since yesterday two top individuals whose time 
to resign had come, 14, 16, 18, 19 months ago, resigned. We 
expect that all 14 would find a way to find appropriate new 
occupations, ones in which their poor judgment, or lack of 
dedication, or unwillingness to actually read documents they 
were required to read would not be held accountable.
    There is no place in our government for people who, under 
statute, are required to do something and then say I didn't do 
it, but I didn't need to do it because somebody else did it 
below me. That is exactly why Congress puts in place a number 
of safeguards at what level things such as wiretaps can be 
authorized.
    For the American people who know that ultimately a wiretap 
application is trusted by a judge, in most cases, who grants 
it, the only protection for the American people is in fact 
knowing that there are safeguards in the application; that an 
agent or an individual simply can't tap your phone by running 
up an application. The very safeguards that failed in Fast and 
Furious to know what was already known and that wiretaps would 
tell you in no uncertain terms that guns were walking, that 
same lack of safeguards could also cause anyone to see their 
phone tapped when in fact it should not be under the law.
    So I look at the protections not granted to safeguard 
against a fatally flawed tactic like Fast and Furious, but I 
look at it to know, as the IG noted in his report, that there 
need to be material changes in controls in how wiretap 
applications go through a process for approval.
    Now, over the next several hours we will hear an awful lot 
from our witness, and I rely on our questions to be germane to 
our witness's 471-page report. I believe that, in fact, given 
an opportunity to have fair question and answer, we will 
understand, first of all, why Jason Weinstein resigned 
yesterday, why Kenneth Melson retired yesterday, and why there 
is much work to be done to reform the Department of Justice and 
the Alcohol, Tobacco, and Firearms Agency in order for the 
American people and, I might note, the people of Mexico to have 
confidence in this Government.
    Lastly, nothing in this report vindicates anyone. If you 
touched, looked, could have touched, could have looked, could 
have asked for information that could have caused you to 
intervene, to complain, to worry, to talk to people and you 
didn't, and you are in our Government, or even if you aren't in 
our Government but were aware of it, you fell short of your 
responsibility. We all have a responsibility to protect against 
firearms ending up in the hands of dangerous criminals.
    With that I want to thank, again, our IG for being here 
today, and I yield to Mr. Cummings for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
thank you for calling this hearing.
    Let me welcome our witness, Mr. Horowitz, and to thank you 
and your staff, everybody from the clerk to you. I want to make 
it very, very clear I join the Chairman in expressing our 
appreciation. It is a thorough report. Your staff has done an 
outstanding job. I know that they missed a lot of vacation days 
and missed time with their families, but I want them to 
understand that we truly, truly appreciate not only their work, 
but the excellent way in which they did it, and I hope they are 
listening, and thank you again.
    Your office has worked for more than a year and a half on 
this investigation. They reviewed more than 100,000 pages of 
documents and interviewed 130 witnesses in compiling this very 
comprehensive report. They did it under the microscope of a 
highly politicized environment in which public accusations were 
sometimes made before the search for evidence even began. It 
was a difficult task, but he and you and your office did an 
admirable job and, again, we thank you.
    In my opinion, one of the most important things we can do 
here today is recognize the service of Border Patrol Agent 
Brian Terry, who gave his life for his Country. Although it 
cannot truly offer any solace to his family, I hope this report 
provides at least some of the answers they have been searching 
for since Agent Terry's murder.
    Let me next commend Chairman Issa. We have had many 
disagreements about how this investigation should proceed, but 
the fact is that the Committee uncovered a severe problem that 
was festering since 2006 in the Phoenix office of ATF and the 
U.S. Attorney's Office in Arizona that allowed criminals in 
Mexico and the United States to obtain hundreds of guns. This 
Committee played an important role in exposing and halting 
these flawed operations.
    I also want to commend the attorney general. I have lost 
count of how many times he has testified on this issue, but he 
has remained evenhanded, respectful, and always true to the 
daunting and critical mission of the department he leads. He 
requested this IG investigation and he has already put numerous 
reforms in place.
    To that end, I note that the Administration did not assert 
executive privilege over any part of the inspector general's 
report over any of the documents relied on by the inspector 
general. In fact, the Department went a step further: 
yesterday, it sent to this Committee more than 300 pages of 
additional documents that were withheld previously.
    I think this is a positive development. I have always 
believed, and I continue to believe, that the Committee and the 
Department can resolve any lingering issues without further 
conflict. With this action by the Department, I urge the 
Committee to reconsider its position and settle the remnants of 
this dispute without resorting to unnecessary and costly 
litigation that nobody in this Country wants.
    With that, let me turn to the report in order to highlight 
several key points and raise some very specific questions.
    There can no longer be any doubt that gun-walking began 
under the Bush Administration. The IG report goes into great 
detail about Operation Wide Receiver and it finds that ATF 
agents simply let guns walk. It also finds that wiretap 
affidavits in Operation Wide Receiver contained just as much 
detail as those in Fast and Furious. The IG report concludes, 
``These tactics were used by ATF more than three years before 
Operation Fast and Furious was initiated.''
    There can also no longer be any doubt that gun-walking was 
never authorized or approved by the attorney general or senior 
Department officials, especially as some sort of top-down 
scheme or conspiracy against the Second Amendment. The IG 
report found that gun-walking ``was primarily the result of 
tactical and strategic decisions by agents and prosecutors.''
    As the IG says in his written testimony for today's 
hearing, ATF and the U.S. Attorney's Office in Arizona ``share 
equal responsibility for the strategic and operational failures 
in Operations Wide Receiver and Fast and Furious.''
    With these points in mind, I have two broad questions, Mr. 
Horowitz, which I hope you will address. First, how could this 
tactic have been used for so long, over the course of five 
years and two administrations, without the ATF field office in 
Phoenix or the U.S. Attorney's Office in Arizona stepping in to 
halt it? What allowed it to go on for so long unchecked?
    Second, what should we do now to ensure that this never 
ever happens again? I know the IG has made his recommendations, 
and I have also made my own. Which of these recommendations 
have ATF and the Department already implemented? Which should 
be prioritized? And which may require legislation?
    Again, Mr. Horowitz, I thank you again, and your staff, for 
an excellent job.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    I now ask unanimous consent that the gentleman from 
Arizona, Mr. Barber, be allowed to participate in today's 
hearing. Without objection, so ordered.
    I also would reserve the right to waive additional members 
in, as they arrive. Pursuant to our rules, members sitting on 
the dais will be recognized only after all other individuals on 
their side of the aisle have previously been recognized on a 
back-and-forth basis.
    With that, I also would like to thank Mr. Barber for making 
the effort to be there for the Brian Terry naming and for 
representing that area of Arizona that I think is so affected 
by Fast and Furious.
    Pursuant to the rules, all witnesses before this Committee 
will be sworn, so I would ask that our witness please rise to 
take the oath. Please raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give will be the truth, the whole truth, and nothing but the 
truth?
    [Witness responds in the affirmative.]
    Chairman Issa. With that, the record will recognize that 
Mr. Horowitz answered in the affirmative.
    General, we normally talk a lot about the five minutes. 
Take the time you need to give us your opening, recognizing 
that it will be a long day of additional opportunities for you 
to answer questions not in your opening. With that, the 
gentleman is recognized.

         STATEMENT OF THE HONORABLE MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you, Mr. Chairman. I ask that my full 
statement be made a part of the record.
    Chairman Issa. Without objection, so ordered.
    Mr. Horowitz. And I have pared that down somewhat, so that 
I don't go on for 20 or 30 minutes, and I will try to stick to 
the five minutes, certainly.
    Good morning, and thank you to the members of the Committee 
for inviting me to testify today about our report, a report 
that we released yesterday which details a pattern of serious 
failures in both ATF's and the U.S. Attorney's Office's 
handling of the investigations in Fast and Furious and Wide 
Receiver, and the Justice Department's response to 
congressional inquiries about those flawed operations.
    This is my first opportunity to testify before the Congress 
since I was sworn in five months ago, and it is an honor to be 
here today.
    During the confirmation process, I made a commitment to the 
Congress and to the American people that I would continue the 
strong tradition of my office for independence, 
nonpartisanship, impartiality, and fairness. Those are the 
standards that I and my office applied in conducting this 
review and in preparing this report.
    As in all of our work, we abided by one bedrock principle: 
to follow the facts and the evidence wherever they led. And as 
indicated previously, this report could not have been done 
without the extraordinary dedication of the staff and the 
employees in my office; they worked long nights, weekends, 
through vacations, and I couldn't thank them enough, and I 
appreciate the Committee's thanking them for their hard work.
    As indicated, we reviewed over 100,000 pages of documents 
here. We interviewed over 130 witnesses, many on multiple 
occasions. The witnesses we interviewed served at all levels of 
the Department, from the current and the former attorneys 
general to the line agents in Arizona who handled the 
investigations. Very few witnesses refused our request to be 
interviewed, and where they did refuse we noted those in the 
report. The Justice Department provided us with access to the 
documents we requested, including documents from post-February 
4th concerning the Department's response to the congressional 
inquiries.
    We operated with complete and total independence in our 
search for the truth, and the decision about what to cover in 
this report and the conclusions that we reached were made by us 
and our office, and by no one else.
    I am pleased that we have been able to put forward to the 
Congress and to the American people a full and complete 
recitation of the facts that we found and the conclusions that 
we reached, with minimal redactions by the Department to our 
report. The Administration made no redactions for executive 
privilege, even though our report evaluates in detail and 
reaches conclusions about the Department's post-February 4th 
actions in responding to Congress.
    Additionally, at our request, the Department has agreed to 
seek court authorization to un-redact as much of the wiretap 
information that we included in this report as possible. If the 
court agrees to the Department's request, we will shortly issue 
a revised version of the report with that material un-redacted.
    The investigation that became known as Operation Fast and 
Furious began on October 31, 2009. By the time the indictment 
was announced on January 25th, 2011, over a year later, ATF 
agents had identified more than 40 people connected to a 
trafficking conspiracy that was responsible for purchasing over 
2,000 firearms for approximately $1.5 million in cash. Yet, ATF 
agents seized only about 100 of those firearms that had been 
purchased.
    Numerous firearms that had been bought by straw purchasers 
were recovered by law enforcement officials at crime scenes in 
Mexico and in the United States. One such recovery occurred on 
December 14th, 2010, in connection with the tragic shooting 
death of a federal law enforcement agent, U.S. Customs and 
Border Protection Agent Brian Terry. Shortly thereafter, the 
flaws in Operation Fast and Furious became known as a result of 
the willingness of a few ATF agents to come forward and tell 
what they knew about it, and as a result of the conduct of the 
investigation by the Congress.
    On February 28th, the attorney general requested my office 
to conduct a review of Operation Fast and Furious, and we 
agreed to do so. During the course of your review, we received 
information about other ATF firearm trafficking investigations 
that raised serious questions about how they were conducted. 
Our report reviews one of them, Operation Wide Receiver.
    We conducted that both Operation Wide Receiver and 
Operation Fast and Furious were seriously flawed and supervised 
irresponsibly by ATF's Phoenix Field Division, by the U.S. 
Attorney's Office, and by the ATF Headquarters, most 
significantly in their failure to adequately consider the risk 
to the public safety in the United State and Mexico.
    Both investigations sought to identify the higher reaches 
of firearms trafficking networks by deferring any overt law 
enforcement action against the individual straw purchasers, 
such as making arrests or seizing firearms, even when there was 
sufficient evidence to do so.
    The risk to the public's safety was immediately evident in 
both investigations. Almost from the outset of each case, ATF 
agents learned that the purchases were being financed by 
violent Mexican drug trafficking organizations and that 
firearms were destined for Mexico. Yet, in Operation Fast and 
Furious, we found that no one responsible for the case, either 
at the Phoenix Field Division or at ATF's Headquarters or in 
the U.S. Attorney's Office, raised a serious question or 
concern about the government not taking earlier measures to 
disrupt a firearm trafficking operation that continued to 
purchase firearms with impunity for many months.
    We also did not find any persuasive evidence that 
supervisors in Phoenix, at the U.S. Attorney's Office, or at 
ATF Headquarters raised serious questions or concerns about the 
risks to the public safety posed by the continuing firearm 
purchases or by the delay in arresting individuals who were 
engaged in the trafficking activity. This failure, we found, 
reflected a significant lack of oversight and urgency by both 
ATF and the U.S. Attorney's Office, and a disregard by both for 
the safety of individuals in the United States and in Mexico.
    Our review revealed a series of misguided strategies, 
tactics, errors in judgments, and management failures that 
permeated ATF headquarters and the Phoenix Field Division, as 
well as the U.S. Attorney's Office and the headquarters of the 
Department of Justice. In the course of our review, we 
identified individuals ranging from line agents and prosecutors 
in Arizona, to senior ATF officials in Washington, D.C. who 
bore a share of responsibility for ATF's knowing failures in 
both of these operations to interdict firearms illegally 
destined for Mexico and for pursuing this risky strategy 
without adequately taking into account the significant danger 
to public safety that it created. We also found failures by 
Department officials related to these matters, including 
failing to respond accurately to a congressional inquiry about 
them.
    Based on our findings, we made six recommendations designed 
to increase the Department's involvement in and oversight of 
ATF's operations, to improve coordination among the 
Department's law enforcement components, and to enhance the 
Department's wiretap application review and authorization 
process. The inspector general's office intends to closely 
monitor the Department's progress in implementing these 
recommendations.
    Finally, we recommended that the Department review the 
conduct and performance of the Department personnel that are 
referenced in the report and determine whether discipline or 
other administrative action with regard to each of them is 
appropriate.
    Thank you again for the opportunity to be here, and I look 
forward to answering any questions that the Committee may have.
    [Prepared statement of Mr. Horowitz follows:]

    [GRAPHIC] [TIFF OMITTED] T6369.001
    
    [GRAPHIC] [TIFF OMITTED] T6369.002
    
    [GRAPHIC] [TIFF OMITTED] T6369.003
    
    [GRAPHIC] [TIFF OMITTED] T6369.004
    
    [GRAPHIC] [TIFF OMITTED] T6369.005
    
    [GRAPHIC] [TIFF OMITTED] T6369.006
    
    [GRAPHIC] [TIFF OMITTED] T6369.007
    
    [GRAPHIC] [TIFF OMITTED] T6369.008
    
    [GRAPHIC] [TIFF OMITTED] T6369.009
    
    [GRAPHIC] [TIFF OMITTED] T6369.010
    
    [GRAPHIC] [TIFF OMITTED] T6369.011
    
    [GRAPHIC] [TIFF OMITTED] T6369.012
    
    [GRAPHIC] [TIFF OMITTED] T6369.013
    
    Chairman Issa. Thank you, Mr. Horowitz.
    I will now recognize myself for a few questions.
    You were given a great deal of access in order to do this, 
over 100,000 pages. Would you characterize--I realize you 
didn't look at every page every day, but would you characterize 
were all 100,000 pages ones that you would have made available 
to this Committee were you deciding to have us see those 
documents? As you know, we received less than 8,000 pages.
    Mr. Horowitz. Well, as we went through, personally, I 
didn't obviously go through myself the 100,000-plus pages.
    Chairman Issa. I will ask it in reverse, maybe; it is 
probably better. Do you know of pages that you saw that 
Congress should, for good cause, be denied?
    Mr. Horowitz. Every document we asked for and reviewed and 
cited in this report we found to be relevant and important. In 
fact, we don't cite in this report every single relevant 
document; we obviously had to pick and choose. So certainly 
what we have seen and we asked for and saw we determined was 
relevant.
    Chairman Issa. So it would be fair to say the documents 
from post-February 4th which you evaluated, saw, and helped you 
prepare this report in which executive privilege was not 
claimed, were relevant, you used them, and they should have 
been provided to Congress in the ordinary course. They are 
being provided indirectly at this time.
    Mr. Horowitz. We certainly found they were relevant, which 
is why we insisted on reporting on them, Mr. Chairman.
    Chairman Issa. Now, there were a number of people you 
didn't get to speak to. I will note, I guess, Mr. Cunningham 
spoke to you and then later would not speak to you. Mr. 
Horowitz, can you tell us a little bit about your efforts to 
try to interview Kevin O'Reilly, a member of the National 
Security Team?
    Mr. Horowitz. We reached out to his lawyer, requested an 
interview. We have no basis to compel interviews from 
individuals who are outside the Department of Justice. He does 
not work in the Department of Justice, so we had to ask for a 
voluntary interview. His lawyer told us he would not appear 
voluntarily.
    Chairman Issa. Would it surprise you that he has been in 
Afghanistan and we have been denied even the ability to serve a 
subpoena on him?
    Mr. Horowitz. I was not aware of where he was, but I was 
told by his lawyer----
    Chairman Issa. I am sorry, Iraq. Sorry.
    Mr. Horowitz. As I said, I don't recall knowing, myself, 
where he was, but we were told by his counsel he would not 
appear voluntarily.
    Chairman Issa. Okay. Also, there was a full-time employee 
of the Department of Homeland Security. Would you explain to us 
your efforts to interview that individual?
    Mr. Horowitz. Yes. There was an agent from Department of 
Homeland Security that was assigned to the operation. As part 
of our effort to be thorough and interview all people who might 
have relevant information, we reached out. He, again, is 
outside the Department of Justice, so he declined our voluntary 
request to be interviewed by us. We sought, through the 
Department of Homeland Security, to speak to him and we 
understood that, absent being compelled and given immunity, 
that he would not speak voluntarily, and that was request was 
declined, is my understanding.
    Chairman Issa. Now, pursuant, and this is outside, I 
admonished everyone to stay on to this, but I think for this 
particular case I want to go outside the scope of this 
somewhat. We are the Committee that will oversee a change in 
the IG Act, if there is one. In your opinion, if the IG Act had 
created a mechanism for you to fully vet these requests, even 
if these were individuals outside of your particular narrow 
agency, is that something you believe would be helpful, 
speaking as an IG, for future investigations?
    Mr. Horowitz. Certainly, we would have used whatever 
authorities we had to seek testimony from individuals, as we 
were able to do internally within the Justice Department. So 
having expanded authority would have certainly allowed us to 
take additional actions here.
    Chairman Issa. Were you ever made aware why Secretary 
Napolitano, Department of Homeland Security, was unwilling to 
have an individual who worked in an OCDETF of such a fatally 
flawed event, one that killed one of her charges, one of the 
border patrol that falls under her cabinet position, why she 
wouldn't insist that that individual speak to you in this 
investigation?
    Mr. Horowitz. I don't know, personally, that information, 
Mr. Chairman.
    Chairman Issa. Okay. Now, one of the two last areas, it has 
been said by many, mostly on the other side of the aisle, that 
there is nothing in these wiretap applications that would have 
caused senior officials to see any red flags as to the reckless 
tactics.
    Now, realizing these documents are not unsealed, would you 
characterize for us whether you would say, as your report does, 
and I quote, and I will read this, but I would like you to 
elaborate, ``among the report's other conclusions, your 
findings that wiretap applications approved by senior officials 
did contain red flags about reckless tactics who should have 
acted on this information.'' And it goes on.
    That line, are we to conclude that, in fact, if you read 
one or more of these 14 wiretap applications, you should have 
known that guns were walking?
    Mr. Horowitz. Yes. As we said in the report, and I also, 
myself, reviewed the 14 applications, believe that if you were 
focused and looking at the question of gun-walking, you would 
read these affidavits and see many red flags, in our view.
    Chairman Issa. Okay, I ask unanimous consent for just one 
more question. Without objection.
    In your report there was an area that I focused on a little 
bit where it implied that Lanny Breuer did not respond or did 
not acknowledge the February 4th letter. Isn't it true that 
Lanny Breuer, in fact, answered good job as at least an answer 
to the February 4th letter, acknowledging that he had received 
it and obviously made that comment?
    Mr. Horowitz. That is correct.
    Chairman Issa. And on that day, on February 4th, wasn't he 
in fact on his way to Mexico City to sell the Mexican 
government on what was effectively a gun-walking program 
coordinated with them?
    Mr. Horowitz. Well, my understanding is he was actually in 
Mexico and my understanding was that he had raised the 
possibility of some program involving cross-border cooperation 
about gun trafficking activity, but, frankly, I don't have more 
knowledge than that at this point.
    Chairman Issa. Thank you.
    Recognize the Ranking Member for his questions.
    Mr. Cummings. Thank you very much.
    Mr. Horowitz, I want to walk through some quick points with 
you and then ask you to respond in more detail to some broader 
questions. You examined Operation Wide Receiver, which was 
during the Bush Administration, and Operation Fast and Furious, 
which was during this Administration, is that correct?
    Mr. Horowitz. Correct. We looked at both of those matters.
    Mr. Cummings. In your report you found that gun-walking 
occurred in both operations, is that right?
    Mr. Horowitz. That is correct.
    Mr. Cummings. We are not talking only about a botched 
coordination efforts with Mexico; we are talking about ATF 
agents stopping surveillance in the United States and letting 
guns walk in both operations, is that correct?
    Mr. Horowitz. Correct.
    Mr. Cummings. In fact, your report said this, ``Operation 
Wide Receiver was noteworthy because it informed our 
understanding of how these tactics were used by ATF more than 
three years before Operation Fast and Furious was initiated.'' 
Is that what your report said?
    Mr. Horowitz. That is.
    Mr. Cummings. Now, you also found that neither Attorney 
General Mukasey nor Attorney General Holder authorized or 
approved gun-walking, is that right?
    Mr. Horowitz. That is correct, although I would note 
Attorney General Mukasey was sworn in after the completion of 
Operation Wide Receiver's investigative portion of the 
activity.
    Mr. Cummings. You also found that there were wiretap 
applications in both operations and that the wiretap 
applications in Wide Receiver included the same kinds of 
potential red flags you found in Fast and Furious affidavits, 
is that correct?
    Mr. Horowitz. We found red flags existing in Wide Receiver 
as well.
    Mr. Cummings. But deputy assistant attorney generals from 
both administrations did not routinely read these affidavits, 
according to your report. You interviewed officials from both 
administrations and they told you their normal practice was to 
read only summary memos, is that correct?
    Mr. Horowitz. We interviewed three of the five deputy AGs 
who reviewed the 14 wiretaps, and all of the three that we 
interviewed.
    Mr. Cummings. I understand. I want you to just tell us what 
happened.
    Mr. Horowitz. I don't want to suggest that all three 
indicated that they did not routinely read the affidavits when 
they came to them.
    Mr. Cummings. I want to make it clear that I believe that 
we need to, if there is reform, and I think your assistants 
mentioned this yesterday, and I am sure the Chairman would 
agree with me, we need to make sure folks read the affidavits. 
Would you agree?
    Mr. Horowitz. I agree and I actually formerly was a deputy 
AG in the Criminal Division, so I have 12 years out of date, 
but I remember reviewing them.
    Mr. Cummings. Now, for both operations you also found that 
gun-walking was not ordered from the top but, instead, was 
``primarily the result of tactical and strategic decisions by 
the agents and prosecutors.'' Is that right?
    Mr. Horowitz. That is right.
    Mr. Cummings. You said in your testimony that the ATF and 
U.S. Attorney's Office in Arizona ``share equal responsibility 
for strategic and operational failures in Operations Wide 
Receiver and Fast and Furious.''
    So here are my questions, and I think these questions will 
go to the heart of the reform that I hope that we will be able 
to get underway.
    How could these tactics have continued in Phoenix over a 
span of five years and two administrations without being 
stopped either by ATF or the U.S. Attorney's Office in Arizona?
    My second question is how should it have worked? And if an 
ATF agent came to his superiors in Phoenix with this kind of 
plan today, how should it be examined and vetted now?
    Mr. Horowitz. Well, as to the first question, I think there 
were serious lack of controls in place in both the U.S. 
Attorney's Office and ATF operation, primarily ATF because they 
are the law enforcement agency that needs approval. We 
highlighted one of them as an example. Even though ATF, for 
eight years, has been in the Department of Justice, the 
attorney general guidelines for use of undercover operations 
were never amended to cover ATF.
    So there were a series of failures in the controls. We have 
made significant recommendations in that area. The Department 
and ATF have put in place additional tools and controls 
already, but there has to be a serious review in vetting of 
operations like this that impact not only the number of guns in 
the communities that are impacted by these, but that involve a 
foreign operation involving guns going to a foreign country. 
That wasn't there at the time. So there needs to be a serious 
look at that.
    And how to prevent that going forward is watching carefully 
to make sure, in fact, the reforms we are all talking about 
aren't lost once the headlines of the report go away; that 
there is oversight, follow-up by the Inspector General's Office 
and I am sure by the Congress in this regard.
    Mr. Cummings. Just one last question. It seems as if Mr. 
Melson, who was heading ATF, seems like, from reading the 
report, seems like he may have fallen asleep at the switch. I 
mean, from what you saw--again, this is the head of ATF.
    Mr. Horowitz. Right.
    Mr. Cummings. Can you tell us about what your report says 
about that?
    Mr. Horowitz. Yes. We found, in Operation Fast and Furious, 
that there was significant information coming to ATF 
Headquarters. In fact, by March of 2010, the deputy director of 
ATF, who was an experienced agent and had served in the ATF for 
a considerable period of time, for the first time in his career 
asked for an exit strategy because of his concern about what he 
had seen. He asked for it, it didn't come to headquarters for 
six weeks, and it wasn't reviewed by the deputy director until 
almost a year later, after the shooting of Agent Terry and 
after the indictment occurred.
    The fact that the deputy director could see the need for an 
exit strategy in March of 2010 and not receive it and review it 
until 2011 I think speaks volumes about what happened here in 
terms of failures of oversight.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    With that, we recognize the distinguished--oh, with that, I 
ask unanimous consent the gentlelady from Florida, Mrs. Adams, 
be allowed to participate in today's hearing. Without 
objection, so ordered.
    With that, we now go to the gentleman from Utah, Mr. 
Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman. I appreciate your 
tenacity in continuing to go after this. We have a dead Border 
Patrol agent, nearly 2,000 AK-47s released, hundreds of dead 
Mexicans, a Mexican helicopter shot down at one point, a dead 
Border Patrol agent, hundreds of guns that are still 
unaccounted for, untold number of crimes that have been 
committed with these guns, and an attorney general whose best 
guess and best argument is a plea of ignorance. So I think Mr. 
Cummings, the Ranking Member, asked the most salient question: 
How does this go on for so long without somebody saying 
something is wrong here?
    I have a fundamental problem and challenge with the fact 
that the acting ATF director, Mr. Melson, is in that position 
for two years and met with the attorney general one time. One 
time. That is inexcusable in my book.
    I also think what happened, part of the conclusion, I 
think, validates what we have been concerned about for so long, 
that the adults in the room, the head of the Criminal Division, 
is supposed to be Lanny Breuer, but Lanny Breuer, having been 
briefed on what happened previously, knew about gun-walking, 
knew about these straw purchases, and said nothing about it. He 
didn't issue a new edict that says we are not going to do this 
anymore. In fact, you would be led to believe that by just 
allowing it to continue on, no new directive, that he was 
actually endorsing this. That is what I take from it.
    I think this is a wonderful report. I appreciate the 
thoroughness. I think you are a professional and did a great 
job. I think you were a little soft on Lanny Breuer. To 
suggest, as you did, on page 314, moreover, Breuer did not 
supervise Operation Fast and Furious and did not authorize any 
activities in the investigation I think is, I would disagree 
with that statement.
    Jason Weinstein reported to Lanny Breuer, and as this 
report clearly highlights, Jason Weinstein is being made as the 
key person that was probably most responsible here.
    I would also point out to my colleagues that on February 
4th, 2011, of all the days, the day that we are issued, 
specific to Senator Grassley, a letter that was totally false 
about ATF's activities. By the way, this letter doesn't even 
mention Fast and Furious, it says that these guns were allowed 
to walk, that ATF does not allow guns to walk, any way, shape 
or form. I would point to the February 4th memorandum about the 
Assistant Attorney General Breuer going to Mexico.
    As a synopsis to that, in Mexico, he proposed to the 
Mexican government, Assistant Attorney General Breuer suggested 
allowing straw purchases cross into Mexico. We have in black 
and white a document suggesting that he is not only approving 
of these types of activities, he is advocating for these types 
of activities.
    So to answer Mr. Cummings' question, it is crystal clear; 
the head of the Criminal Division was down there pitching the 
Mexican government that we ought to be doing more of this. That 
is why it continued, because the person in charge was 
advocating for it. He knew about it previously. And when he did 
hear about it, he did nothing about it.
    In fact, when that letter, on February 4th, goes out the 
door, he had seen it and he said nothing about it. And then 
what is worse is, after the letter goes out, everybody at the 
Department of Justice knows that it is wrong; it takes 10 
months for them to fess up on it. In fact, they issue another 
letter, in May, again compounding the problem, hiding from the 
American people and this Congress the truth.
    Mr. Chairman, I would also highlight what is said on page 
277 by the inspector general: We found that the affidavits 
described, we are talking about the wiretap applications. We 
found that the affidavits described specific incidents that 
would suggest to a prosecutor who was focused on the question 
of investigative tactics that the ATF was employing a strategy 
of not interdicting weapons or arresting known straw 
purchasers.
    Nevertheless, June 7th, 2012, the attorney general 
testifying in the Judiciary Committee, in response to 
Congressman Quayle, I have looked at these affidavits, I have 
looked at the summaries; there is nothing in those affidavits, 
as I reviewed them, that indicates that gun-walking was 
allowed, a direct contradiction and very different from what 
the inspector general looked at. I appreciate you seeking the 
unsealing of these documents so that we can all see them.
    Mr. Chairman, I am also concerned that there was a culture 
and environment where people were either afraid or not willing 
or didn't want to share with the attorney general key 
information specific to what we were doing with Mexico, and 
what I would highlight, and I am running out of time here, the 
culture and the environment was not conducive to have the truth 
surface.
    It is shocking and troubling to me that we did not, that 
the Department of Justice never communicated to the senior 
people at Homeland Security, where one of their agents was 
dead, and still hasn't, to this day, I have questioned them. 
The secretary of Homeland Security didn't ask the attorney 
general what was going on, nor did we ever communicate with the 
Secretary of the State Department so that she could deal with 
this situation.
    We pour thousands of weapons into Mexico and we never 
bothered to tell the Secretary of the State? Isn't that her 
job, role and responsibility? That is one of the things I think 
we also have to look at because that is one of the compounding 
problems that happened along this way, even after we knew all 
these facts, and still to this day I don't think the Department 
of Justice ever solved.
    Chairman Issa. Would the inspector general want to answer 
any implied question there?
    Mr. Horowitz. No.
    Chairman Issa. Okay, with that we recognize the gentlelady 
from New York, Mrs. Maloney, for five minutes.
    Mrs. Maloney. First of all, I would like to welcome the IG 
and note that he is from the great State of New York. We are 
very proud of you even though you are now a Washingtonian, and 
congratulations on your public service. We appreciate very much 
your report.
    First of all, on guns. If you were so concerned about guns 
on the border, then my colleagues could have supported the 
bills that we put forward, the Democrats, really for gun 
safety. So, in my opinion, you are not serious. If you were 
worried about guns at the border, then let's make it a federal 
crime to traffic guns. Let's make it a crime to forestall vast 
sales of these guns. Let's ban assault weapons that aren't used 
to do anything but kill people. They don't kill animals, they 
just kill people. There are a number of things that we could do 
right now that would get the guns off of the border.
    And the Mexican government supports it. They have asked us 
to do so. When we came forward with our bills, we got a letter 
from the president of Mexico saying this is wonderful; that 
will help guns on the border.
    But I would like to do what the Chairman wanted, which is 
to focus on this excellent report that Mr. Horowitz came out 
with, and I would like to refer that in December of 2011 our 
attorney general explained to the House Judiciary Committee 
that gun-walking and Operation Fast and Furious, I like to call 
it Vast and Curious, originated with the local Phoenix office 
of the ATF and the U.S. attorney, and that it was not the 
result of any strategy or directive from main Justice.
    And he said, in May, ``I mean, the notion that people in 
Washington, the leadership of the Department approved the use 
of those tactics in Fast and Furious is simply incorrect. This 
was not a top-to-bottom operation; this was a regional 
operation that was controlled by ATF and by the U.S. Attorney's 
Office in Phoenix.''
    Mr. Horowitz, your report reaches a similar conclusion, 
pointing back to the genesis of these tactics by the field 
agents and prosecutors in Phoenix, and this is what your report 
says about Operation Wide Receiver: ``In sum, the evidence 
demonstrated that the decision to not interdict the firearms, 
despite having probable cause to do so, was a decision made by 
the ATF Phoenix Field Division and was intended to advance 
ATF's broader goal of identifying additional participants in 
the conspiracy.''
    So my question to you, Mr. Horowitz is, and I believe it is 
the main question that we have had as a Committee, is how is it 
that these tactics started? What went wrong? Can you explain 
what you found in your investigation that would explain how 
these tactics first started being used in Operation Wide 
Receiver?
    Mr. Horowitz. In Operation Wide Receiver, what appears to 
have occurred is that information came to the agents in the 
Tucson Office of the Phoenix Field Division and they made a 
conscious decision to not take any action to stop the 
trafficking with the straw purchasers because they wanted to 
follow the guns and figure out to whom they were ultimately 
going. And that was a decision made early on in the 
investigation, almost at the outset, and it was done with the 
acquiescence and approval of the U.S. Attorney's Office. So 
that is why we found that there was a failure by both offices.
    Mrs. Maloney. And that was the office in Phoenix, right?
    Mr. Horowitz. Correct, U.S. Attorney's Office for Arizona, 
for the District of Arizona.
    Mrs. Maloney. Okay. What about the Operation Fast and 
Furious? Did the agents have bad motives or did they just fail 
to consider the public risk involved? What were they thinking?
    Mr. Horowitz. They did not have bad motives as far as we 
found. What we heard from the agents was they had made a 
conscious decision that the long-term effort, that having a 
long-term investigative strategy that dismantled a large 
organization was the greater good that they were undertaking; 
to dismantle the organization, stop the trafficking, and that 
that was what they believed was in the best interest of the 
public safety.
    As we found, that was an incorrect calculation. Law 
enforcement's primary objective is to protect the public. You 
can't take action to let guns walk that will harm people for 
the greater good.
    Mrs. Maloney. What can we do to make sure that this does 
not happen again?
    Mr. Horowitz. Well, I think, first and foremost, there 
needs to be the serious reform and controls we have outlined at 
ATF. There has to be an internal change in how cases are 
managed there. There needs to be supervision; there needs to be 
oversight, and thoughts about investigations like this need to 
be carefully reviewed at the highest levels of the organization 
at the outset, not deferred to to the line agent or to their 
line supervisors. That, to me, is the first and most important 
effort.
    Mrs. Maloney. So you would say that that is the most 
important reform that you think the Department could take?
    Mr. Horowitz. Initially. I think that is a step that is 
apparent that has to happen. I think there are many other 
reforms that we have outlined, including, for example, making 
sure that, at the Department of Justice, in the Criminal 
Division, deputy AGs are reviewing the wiretap applications 
when they get them. That is another reform we have put forward. 
There needs to be clear policies in place within ATF as to what 
is allowed and what isn't allowed, so that it is not just 
reviewing and vetting; it is a clear line as to what is or is 
not permitted.
    Chairman Issa. I thank the gentlelady.
    We now recognize the gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Inspector General, when I met with you several weeks 
ago, I left that meeting cautiously optimistic that we would 
receive a thorough, balanced report, and my optimism was 
rewarded because of you and your staff. I also shared, in no 
small part, I am sure, because of your exemplary service in the 
Southern District of New York and with the Department of 
Justice. Your career as a prosecutor gave me that cautious 
optimism. And I shared with you this was never about politics 
to me. I don't care which party is in power. It was about a 
dead Border Patrol agent and holding the institutions of 
government responsible for what they have done.
    And I think it is wonderful, at one level, that we have an 
independent entity like you to investigate. I just naively 
thought that is what the Department of Justice was. I naively 
thought the attorney general, as the top law enforcement 
official in the Department of Justice, was that independent 
entity that we could trust. And whether it is the letters in 
March and February of 2011, whether it is testimony that has 
been delivered to committees of Congress, sadly, the Department 
of Justice was not vindicated, despite some of the headlines 
this morning.
    Wiretap applications. I specifically asked the attorney 
general are you sure that someone reading these wiretap 
applications and the summaries would not be left with the 
conclusion that gun-walking was a tactic that was used? And he 
said yes, he was sure. And your report debunks that. You used 
to read wiretap applications, correct?
    Mr. Horowitz. Correct.
    Mr. Gowdy. And your conclusion, with that background, is 
that a reasonably prudent person reading these applications and 
summaries would have been on notice way back when that the 
tactic of gun-walking was being used, is that correct?
    Mr. Horowitz. Yes. For someone who is watching it, looking 
for it in that context of gun-walking, I agree that they would 
have seen those red flags.
    Mr. Gowdy. That was a startling conclusion that you 
reached. Another starting fact, I don't want to say it is a 
conclusion, but a fact that you included in your report, and 
you correct me if I am mischaracterizing what you wrote, but 
the attorney general, even today, does not believe that a dead 
Border Patrol agent from an agency that he doesn't supervise, 
who was killed by a weapon as part of an investigation of an 
agency he does supervise is something that should be brought to 
his attention. Does your report not include a paragraph that 
even today the attorney general is not sure that this fact 
pattern should have been brought to his attention?
    Mr. Horowitz. As we included in the report, the attorney 
general told us that it would not necessarily be something he 
would be expected to be notified of. And we are talking about 
not the death, because he was notified about the death, but 
about the fact that two firearms were found at the scene that 
were connected to Operation Fast and Furious.
    Mr. Gowdy. Right. But, inspector general, you were a 
prosecutor, I was a prosecutor, others up here have been 
prosecutors. When you have a dead law enforcement officer, the 
next words out of your mouth are I want to know everything 
there possibly is to know about how this happened. I don't just 
want to know what the autopsy says; I want to know how we got 
to this point, which does speak to management, and it does 
speak to a duty to supervise; not just a commonsensical duty.
    I want to ask you specifically about the code of 
professional responsibility. Is there a duty to supervise, for 
supervisory attorneys to supervise the work of those underneath 
him? Not a common law or a commonsensical obligation, but is 
there a code of professional responsibility obligation to 
supervise?
    Mr. Horowitz. I am not sure I could speak directly to the 
code of professional responsibility in that regard because we 
were looking at obviously whether there was supervisory 
failures. We clearly found there was an obligation as part of 
the performance responsibilities of the agents and the 
prosecutors to supervise, and the failure to do that was a 
serious management failure, in our estimation, in our view.
    Mr. Gowdy. All right, there are two letters, one in 
February and one in May, both of which were demonstrably false. 
You can argue that they were calculated to mislead, but there 
can be no argument that they were false. They were signed by 
Ronald Weich, but I guess the largest exception I take to your 
report is the same one that Mr. Chaffetz had.
    Lanny Breuer was the criminal chief. Lanny Breuer was 
responsible, at some level, for the approval of the wiretap 
applications. Lanny Breuer forwarded this February 4th letter, 
which was demonstrably false, to a home computer, and you don't 
have to be a real good prosecutor to deduce that you forward 
something to a home computer because you are going to read it.
    I can't think of any other reason to forward a letter other 
than to read it, unless you are a historian or an archivist, 
and I don't think he is either one of those. And then he 
confirms our suspicions by writing, good job.
    So given the duty to supervise, given the false letters, 
given the failure to connect the dots, as he said and you 
concluded, I can't imagine a headline that reads, passengers 
charged with speeding, driver exonerated. I can't imagine that 
headline. But, yet, we have DOJ people that were under Lanny 
Breuer who are either resigning or being disciplined. How does 
he escape discipline?
    Mr. Horowitz. As our report outlines, we found that Mr. 
Breuer, back in April 2010, knew about, learned about the gun-
walking tactics in Wide Receiver, and, as we outlined in the 
report, it was a failure by him to alert the deputy or the 
attorney general to that, because ATF reports to the deputy, 
not to him. So it was incumbent upon him, in our view, to 
report it to the deputy and the attorney general.
    And, again, when the letter came in from Senator Grassley 
nine months later or so, in January 2011, we believed, as he 
ultimately testified, that he should have alerted the 
Department to that. Those were two findings we made.
    As to what the discipline or decision is as to discipline 
or administrative or other conduct or other related failures, 
that is really a decision ultimately under our system to the 
attorney general. I have authority to investigate, make the 
findings, which I did, and then it is up to the attorney 
general to decide what, if any, discipline to impose.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from the District of Columbia, 
Ms. Norton, for five minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    And I especially thank you, Mr. Horowitz, for a very 
thorough job where you had to dig into a lot of weeds. And I do 
appreciate the way you connected the dots and drew the lines so 
that we understood where the responsibility went. My line of 
questions really go to why this investigation has gone on for 
so long and why the public was concerned about it.
    The face of this investigation, the poster boy, as it were, 
has been the attorney general of the United States, and the 
Committee has had hearings where over and over again it was 
alleged that the gun-walking was known at the highest levels, 
even by the attorney general, and that this was an approved 
plan, approved by, to quote from a recent record, at the 
highest levels of the Obama appointees.
    Now, I think it is only fair, when the attorney general, 
over and over again, has been the face of this investigation, 
the one held responsible for the gun-walking, to put on the 
record what you have found with respect to the attorney general 
of the United States. Now, you have indicated that you received 
cooperation from the highest levels of the Justice Department 
in doing your investigation.
    Mr. Horowitz. Yes. We received the documents that we asked 
for and, as indicated, other than the handful of individuals 
who refused to speak with us, we generally were able to speak 
with everybody we wanted to.
    Ms. Norton. Did you speak with the attorney general of the 
United States?
    Mr. Horowitz. We did.
    Ms. Norton. You did not?
    Mr. Horowitz. We did.
    Ms. Norton. You did. May I ask you did you find any 
evidence that Attorney General Holder approved of the gun-
walking tactics that have been under investigation by this 
Committee?
    Mr. Horowitz. As we outlined in the report, we found no 
evidence that the attorney general was aware, in 2010, before 
Senator Grassley's letter, of Operation Fast and Furious and 
the tactics that were associated with it.
    Ms. Norton. So the attorney general cold not have approved 
because he did not even know about the gun-walking tactics 
before 2010.
    Mr. Horowitz. We found no evidence that he had been told in 
2010.
    Ms. Norton. Now, let's go to other high levels of the 
Justice Department. Did you find any evidence that the acting 
deputy, Gary Grindler, knew or authorized gun-walking?
    Mr. Horowitz. We found that the acting deputy attorney 
general was briefed about Operation Fast and Furious in March 
of 2010, but we concluded, after looking at what that briefing 
involved, which was item 4 of a 7 item agenda in a 45-minute 
briefing, that it wasn't a sufficient briefing to put him on 
notice, directly and expressly, that gun-walking had occurred.
    It did, we thought, it was sufficient to trigger questions, 
but not sufficient to put him on notice. And we were 
particularly troubled by the fact that he was never briefed 
again by ATF, when, within two weeks after that briefing, the 
deputy director had asked for the exit strategy that I 
referenced earlier; that no one went back to him to tell him 
that information.
    Ms. Norton. So this controversy centered in the U.S. 
Attorney's Office and at the ATF. Your last answer, does that 
mean that you think they deliberately tried to keep the acting 
deputy attorney general from knowing about the parts of Fast 
and Furious that perhaps were most controversial?
    Mr. Horowitz. We didn't find any evidence of 
deliberateness. Again, this is a situation where the deputy 
director of ATF had asked for an exit strategy in March and 
never looked at it until 2011. So it would be hard to explain 
what was going on or what people were thinking given that level 
of failure of oversight.
    Ms. Norton. Mr. Horowitz, to your knowledge, is anyone at 
the Justice Department looking into perhaps the most important 
new tool the attorney general, the U.S. attorney could have, a 
tool that might have been useful to the U.S. attorney in 
dealing with the gun-walking, or are we left, at the end of 
this investigation, with gun-walking and whatever else anybody 
can think of to do something about it?
    Is there any work going on in the Justice Department, as a 
result of your investigation, to give ATF or the U.S. attorney, 
Arizona here, the kinds of tools that would in fact mean that 
nobody would even think about a surreptitious way to get at 
guns like gun-walking and Fast and Furious?
    Mr. Horowitz. What I have been told about the Department's 
response to this is, as we have highlighted in the report, are 
the reforms that are needed within ATF, within the Justice 
Department's review of wiretaps, within its law enforcement 
operations generally. Beyond that, I haven't been informed of 
any additional steps the Department has taken.
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman from Arizona, Mr. Gosar. And I 
would ask if you would yield for 15 seconds.
    Mr. Gosar. I will.
    Chairman Issa. Following up on the previous two democratic 
questions, isn't it true that the then chief of staff, when 
asked if the DAG knew, the deputy attorney general knew, then 
the attorney general should have been briefed related to what 
they knew about Fast and Furious and obviously the question of 
whether Fast and Furious weapons were found at the scene of 
Brian Terry's murder?
    Mr. Horowitz. That is correct, and also that is what we 
found in our report.
    Chairman Issa. Thank you.
    Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Horowitz. Thank you. As my 
previous colleague had said that I grilled you when you came to 
talk to me, and thank you very, very much for instilling some 
trust.
    In your discovery with witnesses, paperwork, did anyone 
within your findings, within the DOJ system, raise questions 
about the truthfulness and possible misleading testimony that 
was being presented by the attorney general in his testimony to 
Congress?
    Mr. Horowitz. No one indicated that in their interviews 
with----
    Mr. Gosar. Did you directly ask the question?
    Mr. Horowitz. I would have to go back, frankly, and look at 
the transcripts.
    Mr. Gosar. We would like you to ask that question. Okay?
    In detailing up with Lanny Breuer, it is my understanding 
that Lanny, or Mr. Breuer, and Wide Receiver closed in 2007, if 
I am not mistaken.
    Mr. Horowitz. The investigative activity ended in 2007.
    Mr. Gosar. Right. So we should know something about it. So 
Mr. Breuer sent members from the Criminal Division to review 
the auspices and directives of Operation Wide Receiver, true?
    Mr. Horowitz. Correct.
    Mr. Gosar. Isn't this like having a prior? I am a dentist, 
but this is like even worse than what Operation Wide Receiver 
would have been, because you know the outcomes here and you are 
still permitting it to go. And if I am not mistaken, that is in 
March of 2010, right?
    Mr. Horowitz. March and April. I believe it is April of 
2010 that the meeting occurs where Mr. Breuer is informed that 
there is going to be a meeting and his deputy goes to that 
meeting to discuss gun-walking and Wide Receiver.
    Mr. Gosar. And that is with Mr. Voth, right?
    Mr. Horowitz. That is with Mr. Hoover, the deputy director.
    Mr. Gosar. Then it gets better.
    Mr. Horowitz. And the deputy assistant director, McMahon.
    Mr. Gosar. So then it gets even better, because if I am not 
mistaken, Mr. Voth comes to Washington, D.C. and does a 
presentation on March of 2010, March 5th, if I am not mistaken. 
I think Joe Cooley was at that presentation, right, at the 
direction of Mr. Breuer?
    Mr. Horowitz. On the March 5th presentation, that is 
correct.
    Mr. Gosar. So all these pieces are pointing to Mr. Breuer, 
that he knows about this early on. I have a problem with this, 
with Mr. Breuer, because he is directly in the line of fire, 
from what I am seeing here; and we have problems. Because not 
only does he go to send somebody back to Arizona, and listens 
to Mr. Voth's presentation and almost gets the thumbs up, no 
caution flags at all. And just like the wiretaps, these are 
alarming discoveries.
    Mr. Horowitz. It is clear that Mr. Breuer was aware, in 
April 2010, about the gun-walking and Wide Receiver, which is 
why we were troubled by his decision to not tell the deputy 
attorney general or the attorney general about it, because they 
have authority over ATF; he does not. So that is why we found 
he should have done that.
    Mr. Gosar. It seems to me, but it is very alarming, because 
I think the scrutiny on Fast and Furious is much higher than 
what Wide Receiver is. They are both egregious, don't get me 
wrong, but this is, to me, you already know the results and 
then you are making the results even worse.
    Mr. Horowitz. Well, and that is why we were troubled when 
the information came to the Department from Senator Grassley, 
in January of 2011, that those dots weren't connected by Mr. 
Breuer and by his deputy, Mr. Weinstein.
    Mr. Gosar. Okay. The day after Brian Terry was killed, the 
attorney general actually emailed three people asking for 
details, did he not?
    Mr. Horowitz. That is correct. I believe it was the day 
after, but I remember----
    Mr. Gosar. This includes Gary Grindler, Monty Wilkinson who 
failed to inform the attorney general in connection with the 
Brian Terry murder with weapons from Fast and Furious, true?
    Mr. Horowitz. That is correct, the failure to notify him 
about the connection between the two guns found at the scene, 
that they had been bought 11 months earlier by a subject that 
had been identified in fast and furious.
    Mr. Gosar. Now, going back to my colleague from South 
Carolina, you know, when a law officer is murdered, there is a 
lot of raised tensions and a lot of questions being asked. We 
have a whole scenario of things that occurred here. I mean, the 
questions should have been asked and we should have had a 
better outcome. But there was another incident in Arizona, late 
January, my understanding with even Congressman Giffords, is 
questions were abounding was one of these guns being used, was 
that not?
    Mr. Horowitz. I believe so.
    Mr. Gosar. So we should have known. I mean, the attorney 
general's testimony, to me, seems flawed. We would have been 
asking and should have known much earlier about these questions 
about Fast and Furious based upon the inquisition of the 
witnesses to these crimes and the nature of these crimes and 
the audacity of these crimes, particularly to higher members 
like Congress, right?
    Mr. Horowitz. Well, as I indicated in the report, we 
certainly believed that when that information about the guns 
connected to the shooting scene of a law enforcement agent, 
that that kind of information needs to go to the attorney 
general of the United States.
    Mr. Gosar. So it was covered up.
    Mr. Horowitz. Well, I don't know whether it was covered up 
or not, but it was not told to him.
    Mr. Gosar. Okay.
    Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Massachusetts, Mr. Lynch, 
for five minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I thank the witness for a very, very thorough report, 
extremely thorough. Churchill might say that this report 
defends itself against the risk of being read by its very 
length.
    [Laughter.]
    Mr. Lynch. However, I am working my way through it. Started 
with the conclusions and going through it in great detail. But 
you do address a lot of the questions that we have raised here 
in five or more hearings.
    I do want to ask you one point, though, about vindication. 
Some are saying people are vindicated; some people are not. But 
in prior hearings the accusations were against the attorney 
general, and Attorney General Holder had come before the 
Committee several times, also over in the Senate, and the 
accusation was that he knew, he knew about this operation, he 
ran it, and the blame lies with him.
    Now, I read your report and it says that there was no 
evidence, no evidence that he knew. You do, I think accurately, 
pinpoint some people who were ultimately responsible. You name 
them. You identify the flaws in their thinking, their misguided 
strategies, their misguided tactics, and how they made mistakes 
during this whole process, and it was a terrible and tragic 
mistake. You are also highly critical of some others.
    And, in fairness, there were cross-allegations against 
Attorney General Mukasey as well, that he knew more about Wide 
Receiver when he was in office as attorney general. Yet, after 
this very thorough analysis, you say there was no evidence that 
either Attorney General Holder or Attorney General Mukasey knew 
of those operations.
    So I am asking you do you believe that this report 
vindicates Attorney General Holder and, fair enough, Attorney 
General Mukasey, given their lack of information about what was 
going on?
    Mr. Horowitz. I think the report speaks to what we found 
and didn't find in our conclusions, and I will stand by the 
very lengthy, I agree with you, report, and not trying to re-
characterize or characterize it today, myself.
    Mr. Lynch. Okay.
    Chairman Issa. Would the gentleman yield? Perhaps I can 
assist.
    Mr. Lynch. Sure.
    Chairman Issa. I think from the Chair's standpoint, I think 
your point is extremely good, that nowhere in this report did 
we find specific incrimination of they knew, either one of 
these attorneys general; and I think that is an important point 
and it is one that I think, for the record, the Committee 
should be aware of, is that I don't think anyone should have 
assumed that they knew.
    We certainly would all wish that any attorney general would 
ask to know more and would have known more, and I think the 
inspector general's report does cast blame for high-ranking 
people not asking more questions. But I agree with the 
gentleman that neither attorney general was found to know it.
    Mr. Lynch. Right. Reclaiming my time.
    Chairman Issa. We stopped the clock for that question, by 
the way.
    Mr. Lynch. I appreciate that. Thank you. Thank you for that 
courtesy.
    Look, this is a big agency; we have thousands of employees. 
We have, at least the report indicates and identifies, an 
assistant deputy attorney general in one division who failed to 
report, failed to inform his superior. So the implication is 
that the U.S. attorney general should know what every single 
assistant deputy attorney general knows and fails to report.
    I didn't vote for him, but this Congress has just held the 
attorney general in contempt, the House did, and I just think 
based on this report, the suggestion by many, and some in this 
Committee, was that the attorney general was withholding 
information to protect himself because he was involved, and 
this report, this very thorough, very professional, very well 
done report, impartial, very objective, based on the facts, 
based on documents not available to this Committee, based on 
interview of 130 witnesses, many not available to this 
Committee, interviewed multiple times, have concluded that that 
was wrong. That was wrong. This attorney general, while not 
perfect, was not guilty of the things that people on this 
Committee and others in the press accused him of, and that is 
secondary. That is secondary.
    Final responsibility here----
    Chairman Issa. The gentleman's time has expired. Could you 
get to primary?
    Mr. Lynch. The primary is the changes that have been made 
at ATF, because ultimately the primary objective here was to 
pay respect to Brian Terry's service to this Country and to his 
family. So can you tell me whether the reforms to ATF that 
would prevent another agent who puts on the uniform for this 
Country and serves this Country could be protected now because 
of the changes that have been adopted by the ATF so that 
something like this doesn't happen to another American in 
service of his Country on the Customs and Border Patrol?
    Chairman Issa. The gentleman's time has expired, but please 
answer.
    Mr. Horowitz. ATF steps, as we indicated, are important 
first steps. We thought there needed to be additional steps 
taken, and we recommended those and we will follow up to make 
sure those are put in place.
    Chairman Issa. Thank you. And the gentleman's other 
question about people informing or should have informed the 
attorney general or the other up, I think he would like to have 
an answer to, the up chain failure.
    Mr. Horowitz. And we found, as we outlined in the report, 
we struggled to understand how an operation of this size, of 
this importance, that impacted another country like it did, 
could not have been briefed up to the attorney general of the 
United States. It should have been, in our view. It was that 
kind of a case.
    Mr. Lynch. Okay.
    I thank you for the indulgence.
    Chairman Issa. Thank you.
    Mr. Lynch. Thank you.
    Chairman Issa. Of course.
    We now go to the gentleman from Pennsylvania, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    And thank you, Mr. Horowitz, for your continuing good work 
on behalf of the Department of Justice and certainly the United 
States of America. You couldn't have teed off my questioning 
any better than asking about the failure to report this up the 
chain.
    I am going back to an April 12th. This is an email that 
comes from Deputy Attorney General Weinstein and it is with 
respect to a prosecution memo that he gets on Operation Wide 
Receiver, and these are his words: ``I am stunned. Based on 
what we have had to do to make sure that not even a single 
operable weapon walked in undercover operations I have been 
involved in planning, I think we need to make sure we go over 
these issues with our front office. We owe it to ATF 
Headquarters to preview these issues before anything gets 
filed.''
    So let me ask a predicate question. With complete knowledge 
that guns had been walked, that there were implications that 
had been crimes committed in Mexico based on a prior activity, 
did you ever ask why they continued to prosecute that case and 
send agents that actually re-invigorated that investigation and 
prosecution on the prior bad act?
    Mr. Horowitz. I would have to go back and check the 
transcript on exactly what was asked and what was answered, and 
I am happy to do that. I do think it is evident from the email 
traffic that we looked at, which was a belief that this was a 
good case, there were people that they had evidence on, but 
that there would be the possibility of embarrassing the agency 
by press stories about the gun watch----
    Mr. Meehan. We are more worried about embarrassing agencies 
than we are about the public safety and issues of that nature.
    Mr. Horowitz. From our standpoint, that appeared to be the 
outcome of that meeting that happened just two weeks later, 
which was about managing what the public's reaction might be to 
learning about gun-walking.
    Mr. Meehan. What I find about this statement is in his own 
words the degree to which Mr. Weinstein believes that there is 
a responsibility to inquire with regard to an investigation.
    So now let's move forward a little bit to the next matter, 
in which he is now in charge of the oversight of the Fast and 
Furious. And there are certainly communications that take place 
with regard to certain higher level individuals who are engaged 
in the review of information and others. What responsibilities 
did he have at that point in time to inquire as to the 
activities that may have taken place during Fast and Furious, 
appreciating that by his own language he had already 
understood, first, that the ATF had already engaged in this 
kind of activity improperly and, second, his own articulation 
that even a single gun being walked was a violation of what he 
considered to be his sense of a properly run case, and, third, 
his own desire to assure that inquiries were made?
    Mr. Horowitz. Well, what occurred is in that late April 
into May time period, in connection with or immediately after 
the discussion he had about Wide Receiver and the gun-walking 
in Wide Receiver, he learned information about Fast and 
Furious. Perhaps not gun-walking was going on, but he learned 
information about the case sufficient enough to write an email 
to the head of the internal office at the Justice Department 
that handles wiretaps, to refer to it as the most or one of the 
most important cases involving the U.S.-Mexico trafficking 
activity. And he did that in the context of trying to ensure 
the wiretap applications were being reviewed promptly.
    He then, two weeks later, had one of those wiretap 
applications land on his desk for approval. He indicated to us 
he never read it; he only read the cover memo. As we indicate 
in our report, we thought there was sufficient evidence and 
information even in the cover memo to warrant him to inquire 
into that affidavit.
    Mr. Meehan. I thank you for your language, because this is 
his language. This is perhaps the most significant Mexico-
related firearms trafficking investigation ATF has going. So he 
knew not only that, but the importance and the significance of 
it. Where is the duty to inquire with regard to you have 
notice. Now, we know as attorneys, under the tort law, people 
are being sued all over the United States because they had 
prior notice of a condition, failed to act, and now they are 
being responsible because subsequent somebody else has been 
harmed.
    I have already identified the standards that this 
particular individual had, and we know he has explicit 
information about prior activities of this sort. We know that 
there is information that is contained within, according to 
your report, the affidavits of probable cause that he is 
responsible for reviewing, maybe not in complete, but the 
failure to inquire and the communications that take place 
between he and Breuer and one more in which there is this, 
well, I judged from his, effectively, demeanor that he 
understood, when he was talking to the ATF. Where is the duty 
to inquire that would have led to a clear articulation of what 
was going on with Operation Fast and Furious?
    Mr. Horowitz. And that, I think, is a very important 
question and precisely the reason why we have the 
recommendation in the report about deputy AAGs needing to 
review the affidavits. They are not looking at it just as 
robotic lawyers to check a box about is this statutory purpose 
met, is another statutory purpose met. Deputy AAGs are SES, 
members of the SES; they are involved in policy issues. They 
have an appreciation, or should have an appreciation of broader 
issues. And if they notice a problem, their obligation, I 
believe, as a deputy AG, is to then ask follow-up questions.
    Mr. Meehan. Mr. Horowitz, you get the ability--I am running 
out of time. You get the ability to be--and I think you did 
well here. You are judge, jury, fact-finder, and writer of the 
opinion, so you are able to classify things in a variety of 
different ways. Is it your opinion that Mr. Weinstein should 
have specifically and unambiguously questioned whether there 
were improper tactics on Fast and Furious that mirrored those 
that had taken place in the prior operation?
    Mr. Horowitz. We found there was sufficient information in 
the cover memo he saw to either ask questions or to go into the 
affidavit and read it, which would have triggered, in our view, 
more red flags.
    Chairman Issa. I thank the gentleman. I thank you for that 
line of questioning.
    We now go to the gentleman from Illinois, Mr. Quigley, for 
five minutes.
    Mr. Quigley. Thank you, Mr. Chairman.
    Thank you for your work. We appreciate all your staff and 
the extraordinary amount of work that took place here.
    You were talking a little bit about the wiretap analysis. 
Is it your sense, in talking to them, they thought this was 
because of the sheer volume that junior level people were only 
reading the summaries of these wiretap applications?
    Mr. Horowitz. That is what we had heard, which is the sheer 
volume of wiretap applications that came before deputy AAGs, 
with all the other items they needed to deal with, that they 
could rely on the memos from their subordinates, which we are 
not taking issue with the thoroughness of the memos that they 
received, but that was what we had heard.
    Mr. Quigley. But the memos, the summaries weren't--were the 
summaries enough to create red flags, in your mind, or the 
actual wiretap applications, the full body?
    Mr. Horowitz. Well, in our view, the summary memo that was 
received by Mr. Weinstein, given what had just occurred within 
the prior few weeks regarding Wide Receiver, were sufficient, 
in our view, to trigger him to inquire further.
    Mr. Quigley. But going back to your point of avoiding this 
in the future, which is what we should really be about, unless 
there is something like you just described that triggers a more 
thorough analysis, how do you get through the volume that we 
talk about here in all these cases, and many more instances 
across the Country and other scenarios that you can only 
imagine? What is it you have to do, take a random number of a 
particular type and do a more thorough analysis to see if there 
is something more significant there?
    Mr. Horowitz. I think, in our view, in each instance the 
Congress has authorized what is a very intrusive law 
enforcement technique, electronically wiretapping an 
individual's phone or other personal device. Congress put very 
tight strictures on that. That is a Fourth Amendment right that 
is being invaded.
    In our view, in each instance, a deputy assistant attorney 
general, which is the person to whom the statute Congress has 
given authority to authorize that intrusion, should look at 
each affidavit in a manner sufficient to allow them to perform 
a personal judgment on whether they are comfortable that that 
application, that affidavit meets the statutory criteria. We 
recognize that the level of scrutiny they give to the affidavit 
can well be informed by what they read in the memo their staff 
has provided to them, but that they can't and shouldn't just 
rely on that staff memo.
    Mr. Quigley. But again, back to your own experience, the 
sheer volume alone, is the staffing sufficient?
    Mr. Horowitz. Certainly, there can always be more staffing, 
and the volume has grown since I was in the Criminal Division 
12 years ago, so I understand why there may be a need for more 
resources. But I think, regardless of whether there is a need 
for more resources, in our view, this is such a significant 
event that is being authorized that this deserves the highest 
priorities.
    Mr. Quigley. Let me skip to another point. In your 
analysis, what is your estimate of the total number of guns 
that were walked under both administrations?
    Mr. Horowitz. As we put in the report, rough estimate in 
Fast and Furious was about 2,000; rough estimate in Wide 
Receiver was about 400. That is total guns. There were about 
100 firearms in each case that were interdicted by ATF.
    Mr. Quigley. But now analyzing this as much as you did, and 
analyzing what Agent Forselli said, that straw purchasers are 
punished about like a moving violation, when he testified 
before this Committee, your best guess, in reviewing these 
applications, on the number of guns that are transported 
through straw purchases?
    Mr. Horowitz. I am sorry, the number of guns----
    Mr. Quigley. That go to Mexico due to straw purchases.
    Mr. Horowitz. Well, we did a report in Project Gunrunner a 
couple years ago that outlined the significant flow of firearm 
trafficking, so there is a substantial flow of firearms.
    Mr. Quigley. But your guess in numbers annually, thousands 
and thousands and thousands?
    Mr. Horowitz. As I sit here, I am sorry, I don't have that.
    Mr. Quigley. But best guesses are--and this is a tragedy, 
and that is what we are about. But if the concern is, as the 
Chairman said earlier, to keep guns out of the hands of 
dangerous criminals, this issue isn't going to stop today, 
because straw purchases are happening today. And as the agent 
who testified in front of this Committee said, they are not 
punished any more than doing 65 in a 50.
    I know, because of your hard work, you appreciate this, but 
it cannot be lost upon you, sir, that the fact is we haven't 
solved this problem if thousands, the numbers dwarfing what 
happened in this tragedy, are still taking place.
    Mr. Horowitz. Clearly, as we outlined in our previous 
report, in Project Gunrunner, there is a need to take serious 
action, law enforcement action to address this problem.
    Mr. Quigley. Thank you.
    Chairman Issa. I thank the gentleman.
    I only ask you to maybe correct your statement about one 
thing. You used the word interdicted. Do you mean recovered or 
interdicted, when you said 100 weapons in each?
    Mr. Horowitz. I am sorry. I am limiting that to ATF 
interdiction of 100 out of 2,000----
    Chairman Issa. Were recovered or covered?
    Mr. Horowitz. I am sorry, 100 interdicted or stopped by 
ATF. Many additional recovered at crime scenes or in other 
locations. But only 100 in total of the 2,000.
    Chairman Issa. And just because I think the gentleman's 
point was very good, when you are using that term, it is a term 
where they lost control, but then regained control.
    Mr. Horowitz. In some instances that is the case. It is 
hard to generalize on the 100 because there were several 
different events that occurred as to how they got them, some of 
which I actually can't even talk about because it is still 
under----
    Chairman Issa. I appreciate that. I just think that this 
Committee has spent an inordinate amount of time, as has the 
Judiciary, in trying to define what gun-walking is. If you grab 
them before they lose your control, we generally believe that 
is not gun-walking. And if you deliberately allow it to leave 
your control, that is gun-walking.
    Mr. Horowitz. And the definition we operated under 
generally was you have an opportunity to interdict and a legal 
basis to do so, and you don't.
    Chairman Issa. A great standard, and it should be the 
standard. I thank the gentleman.
    We now go to the former chairman of the full Committee, the 
gentleman from Indiana, Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    On page 455 of your report you refer to Lanny Breuer 
failing to report the gun-walking to the deputy attorney 
general and you say, we believe Breuer should have promptly 
informed the deputy attorney general or the attorney general 
about the matter in April 2010, and he failed to do so.
    The question I have is the public relations office over 
there, I guess the lady's name is Tracy Schmaler, on June the 
5th she said, the Committee also knows full well that Assistant 
Attorney General Lanny Breuer did not review the wiretap 
applications in Fast and Furious. That does not stop the 
Committee, however, from falsely asserting that Breuer was 
responsible for authorizing them.
    There is a real inconsistency there. And the last part of 
my question is I understand that there is a Media Matters. I am 
sure you are familiar with what that is. This Ms. Schmaler 
evidently sent an email to them about somebody that ought to be 
investigated or ought to get a little pressure put on them. Are 
you familiar with any of that?
    Mr. Horowitz. I have read the reports and I have seen them. 
I have not looked at it, Congressman, beyond that at this 
point.
    Mr. Burton. So that was not involved at all in your--the 
reason I ask is if this kind of an email was sent for, I guess, 
Justin Phillips, were any other emails sent to Media Matters 
about the Chairman or members of this Committee who were 
conducting the investigation? Because she was pretty vocal and 
vociferous when she said, on June 5th, the Committee also knows 
full well that Assistant Attorney General Lanny Breuer did not 
review the wiretap applications in Fast and Furious. And then 
she went on to say, that does not stop the Committee, however, 
from falsely asserting Breuer was responsible for authorizing 
them.
    If this example of going to Media Matters about this Mr. 
Phillips is a way that they normally do things over there in 
the public relations department, I was concerned that maybe 
they were trying to do that to the members of this Committee 
that were working so hard on the investigation or possibly the 
Chairman. But you have no knowledge of that?
    Mr. Horowitz. I don't know about the interaction between 
Office of Public Affairs and Media Matters other than what I 
have read in the press in the last few days about it.
    Mr. Burton. Okay. Thank you very much.
    I will yield to the Chairman.
    Chairman Issa. I thank the gentleman.
    Speaking of retaliation against the Administration's 
enemies or the attorney generals, if in fact federal funds are 
used in order to dissuade members of Congress or members of the 
Judiciary Branch, that would be a violation of law, wouldn't 
it? You are not allowed to use federal funds to essentially try 
to attack your political opponents. That is kind of a no-no, 
isn't it?
    Mr. Horowitz. That is my understanding.
    Chairman Issa. IG 101.
    Well, to that extent, I would like to talk to you about the 
whistleblowers. As you said in your opening statement, and I 
think both sides of the aisle have called them courageous, your 
report does not spend much time discussing whistleblowers who 
exposed Fast and Furious, although you do mention it. Have you 
been able to determine whether the whistleblowers have in fact 
been dealt with fairly and protected under the Whistleblowers 
Act?
    Mr. Horowitz. That is a matter, as we indicate in the 
report, we are still finalizing and reviewing, and I agree, Mr. 
Chairman, the efforts of the ATF agents in this case to come 
forward and acknowledge what was not public--and having done 
law enforcement cases in the Southern District of New York, it 
takes a lot of courage to come forward, if you are in a law 
enforcement agency, and explain what the agency has done wrong.
    Chairman Issa. And in your report would you feel that you 
have vindicated the whistleblowers? In other words, initially, 
when Dobson and others came forward, they were accused of, in 
fact, false allegations, etcetera. Would you say that at the 
end of your investigation, those 471 pages, as succinct as it 
is, pretty well does a job of vindicating their concerns that 
they raised publicly?
    Mr. Horowitz. It certainly, from my standpoint, and there 
were a lot of people who came forward, so let me just say----
    Chairman Issa. Right. I realize it is a broad group now.
    Mr. Horowitz. The folks who came forward, the agents who 
came forward and said guns were being walked and they could 
have had an implication in Agent Terry's death is what some of 
the earliest information was on the Internet, and more publicly 
beyond that, I think it is pretty clear that that is what 
happened here, is that guns were walked in quite a substantial 
way.
    Chairman Issa. Now, notwithstanding the fact that Brian 
Terry had to be gunned down for them to come forward in ever 
increasing numbers, wasn't this an example of exactly why 
whistleblowers are to be protected and why whistleblowers 
should be encouraged to come forward sooner, rather than later? 
And I want to particularly mention ones who are not looking for 
a qui tam case, but, in fact, are truly just trying to get 
something bad stopped.
    Mr. Horowitz. I agree. I think this is an example of the 
importance of employees in all parts of the government, in this 
case law enforcement, to come forward if they have information 
and be comfortable doing that. And that is one of the reasons, 
as you know, I have put in place a whistleblower ombudsman 
position in my office, because of this and other events that I 
have seen that people need to be comfortable to come forward 
and talk, and we need to do a good job of following up on their 
concerns.
    Chairman Issa. Well, I want to thank you and I want to 
particularly thank you for the fact that more whistleblowers go 
to IGs. IGs run down more of these problems, by far, than 
Congress ever does, so we often get noted when whistleblowers 
come to us, but most of the cases that we see come through your 
offices when whistleblowers have come within the agency.
    With that, I would note that one of the UCs that will be on 
the floor today will in fact be a whistleblower reform, so 
there couldn't be a better time to remind the members of 
Congress that we depend on whistleblowers and we need to 
protect them.
    With that, I am pleased to go to the gentleman from 
Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And thank you, Mr. Inspector General. I want to thank you 
for your very informative and clarifying information. I think 
what you have delineated gives the average citizen a great deal 
of confidence that what they are hearing is what has actually 
happened. I know that Lanny Breuer, the head of the Criminal 
Division at the Department of Justice has been severely 
criticized by some members of Congress for what they considered 
to be his actions here. Senator Grassley has called for his 
resignation, the Chairman of this Committee has said Mr. Breuer 
``clearly had culpability,'' and Mr. Chaffetz even said that 
Mr. Breuer started this up in 2009.
    So I want to ask you a few questions to see if we can't 
really clarify and understand what Mr. Breuer's role in these 
two programs. One, Mr. Horowitz, did you find that Assistant 
Attorney General Breuer authorized or directed gun-walking in 
either Operation Fast and Furious or Wide Receiver?
    Mr. Horowitz. We did not.
    Mr. Davis. Did you find that Mr. Breuer review or approved 
the wiretap applications in either operation?
    Mr. Horowitz. No. In each of the 14 instances it was a 
deputy assistant attorney general who authorized the 
applications.
    Mr. Davis. Did you find any evidence that Mr. Breuer was 
aware that gun-walking occurred in Operation Fast and Furious 
before the information became public?
    Mr. Horowitz. Prior to Senator Grassley's letter, we did 
not find information that he was aware of gun-walking in 
Operation Fast and Furious; it was only with regard to Wide 
Receiver that we were aware of that information.
    Mr. Davis. In April 2010, Mr. Breuer did learn about the 
gun-walking tactics that had been used during the Bush 
Administration in Operation Wide Receiver, but only after the 
operation had been completed. So, Mr. Horowitz, what did Mr. 
Breuer do when he learned that gun-walking occurred in 
Operation Wide Receiver?
    Mr. Horowitz. What we were told by Mr. Breuer and Mr. 
Weinstein, and perhaps others that we interviewed, was that 
there would be a meeting with ATF and at that meeting ATF would 
be told that the gun-walking tactics were unacceptable. We 
found that there was no, however, admonishing at the meeting. 
Mr. Breuer was not at that meeting, but we found that there was 
no, in fact, admonishing of ATF for that conduct.
    Mr. Davis. What additional steps, if there were any, do you 
think Mr. Breuer should have taken when he learned that gun-
walking occurred in Operation Wide Receiver?
    Mr. Horowitz. Well, as indicated, one of the things we 
sought out to do here was address the facts that we found and 
not go beyond those, and in this case we found he knew about 
Wide Receiver in April of 2010. He did not have direct 
authority over ATF, it was the deputy attorney general and the 
attorney general who had authority. Those tactics were 
unacceptable and he should have told the two people, one or 
both of the people, who could have taken action to stop or to 
correct what was happening.
    Mr. Davis. Mr. Breuer testified publicly before Congress, 
has acknowledged and apologized for his oversight, and 
explained that he regretted the fact that he did not raise 
concerns about Operation Wide Receiver with other senior 
leaders at the Department of Justice. Chairman Issa has also 
alleged that Mr. Breuer was actively advocating gun-walking to 
the Mexican government.
    As evidence for this claim, Chairman Issa points to notes 
from a meeting with senior officials for the Mexican government 
on February 2nd, 2011, that stated that Mr. Breuer discussed 
controlled deliveries. Here is what the note said: ``Mr. Breuer 
suggested allowing straw purchasers to cross into Mexico so the 
Mexican federal police force can arrest the Mexican, attorney 
general's office can prosecute and convict. Such coordinated 
operation between the United States and Mexico may send a 
strong message to armed traffickers.''
    Chairman Issa. I would ask unanimous consent the gentleman 
have an additional minute. Without objection.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Horowitz, in your report you draw a sharp distinction 
between gun-walking and controlled deliveries. Do you consider 
advocating for coordinated operations with Mexico to be the 
same as advocating for gun-walking?
    Mr. Horowitz. We found, as you noted in our report, that 
controlled deliveries are different from gun-walking, and we 
would draw a distinction between the two, and a distinction was 
drawn between the two for us by a number of witnesses.
    Mr. Davis. I thank you very much for your testimony.
    Chairman Issa. Would the gentleman yield?
    Mr. Davis. Yes.
    Chairman Issa. Isn't it true that Wide Receiver, as an 
intent stated, was a controlled delivery? The actual gun-
walking that occurred was when agents abandoned their watch of 
the weapons for any number of reasons, including they had been 
there for hours, they were tired, they went home. But the 
actual program that Assistant Attorney General Breuer was 
advocating, in fact, reads right on what was Wide Receiver.
    Mr. Horowitz. And in Wide Receiver there first was a 
failure to interdict, then there was this effort of controlled 
deliveries, then there was a failure again. And the controlled 
deliveries that, as I understand it, and we did not investigate 
this further, that Mr. Breuer had talked about in February of 
2011 was an effort to do coordinated interdiction with Mexican 
authorities. That was stopped by the deputy attorney general's 
order a few weeks later.
    Chairman Issa. But, in fact, if he had succeeded and they 
had gone to do it, they would have been essentially repeating a 
history of something that had failed, the transborder crossing 
interdiction.
    Mr. Horowitz. Right. Well, they clearly failed in Wide 
Receiver, and I guess, as with all things, the devil is in the 
details as to how the plan of action would be. So I am hesitant 
to speculate as to what the outcome would be, but that was the 
idea in Wide Receiver, was to try and do an effective 
controlled delivery, which never happened.
    Chairman Issa. Thank you.
    I thank the gentleman for yielding.
    We now go to the gentleman from Florida, Mr. Labrador, who 
is not from Florida, but from Idaho.
    Mr. Labrador. Or wherever I am from, right?
    Chairman Issa. Well, we could go on and on, but you are 
just lucky Ross was out of the room. The gentleman is 
recognized.
    Mr. Labrador. Good morning. Thanks for being here. And I 
thank you for your report. I think it is very thorough. You 
know, this morning and yesterday we have heard a lot of media 
reports about how this is a vindication for Mr. Holder, and you 
have already said that you are not going to go there, you are 
just going to let the report speak for itself. But I find it 
fascinating that the only way some of the people here and in 
the media are saying that this is a vindication for Mr. Holder 
is by creating a strawman argument.
    They are saying that what this Committee was investigating 
was whether Mr. Holder knew or participated in Fast and Furious 
from the beginning. That is a strawman argument. We didn't know 
what Mr. Holder knew. And why didn't we know? Because he came 
to Congress on several occasions and he misled Congress. 
Whether it was intentional or whether it was unintentional, the 
facts in your report show that he, on several occasions, didn't 
tell the truth to Congress, isn't that true?
    Mr. Horowitz. We don't draw a conclusion as to his 
testimony to Congress; I think that, obviously, is for the 
members----
    Mr. Labrador. But in the letters that were sent from the 
Attorney General's Office twice, right, memos, the statements 
in those memos were either misleading or false, isn't that 
correct?
    Mr. Horowitz. We didn't look at that as part of our review, 
Congressman, so I am not in the position today to speak to the 
representations to Congress in those letters.
    Mr. Labrador. No, in the memos that were sent. The letters 
you have are on, he stated on May 3rd Holder testified, well, 
you didn't look at the statements, but he did give two memos to 
Congress through his office. There were two specific memos that 
were given to Congress that had to be retracted, isn't that 
correct?
    Mr. Horowitz. I am not aware of that, Congressman. Again, 
we didn't question the Department about what they did or didn't 
provide to Congress.
    Mr. Labrador. Okay.
    Chairman Issa. Would the gentleman yield for just a second?
    Mr. Labrador. Yes.
    Chairman Issa. Yesterday, in the briefing, you might want 
to check with your own staff, we were talking about the 
February 4th, which was later corrected, and the May 2nd, I 
believe.
    Mr. Horowitz. Okay.
    Chairman Issa. Those two you do have an opinion on.
    Mr. Horowitz. Yes. I am sorry. The reference to memo, I was 
confused.
    Chairman Issa. I know. I apologize. We will call them 
letters.
    Mr. Labrador. Yes, letters. So let's call them letters.
    Mr. Horowitz. Yes. I am sorry about that.
    Mr. Labrador. You are aware of the two letters, correct?
    Mr. Horowitz. Correct.
    Mr. Labrador. The February 4th and the May 2nd letter.
    Mr. Horowitz. Correct.
    Mr. Labrador. And those had to be retracted.
    Mr. Horowitz. The February 4th letter was retracted. I 
think, as the Committee's own report indicated, as to the May 
2nd letter, there is an argument that it is literally true, but 
that is what in part troubled us, as we wrote.
    Mr. Labrador. And you wrote in your report that that 
troubled you.
    Mr. Horowitz. Right.
    Mr. Labrador. Because it was literally true. I don't know 
if you used the word misleading, but it could mislead.
    So let me just ask you a simple question, and really 
quickly tell me how much time, how many people do you have on 
your staff working on this report?
    Mr. Horowitz. I don't know the number precisely because so 
many people had worked on it for 18 months.
    Mr. Labrador. Approximately.
    Mr. Horowitz. It was, I am guessing, north of 20, but it 
would be a pure guess.
    Mr. Labrador. And how many man-hours do you think were 
spent on this report?
    Mr. Horowitz. The good news is I wasn't here for the first 
13 months, so I can't tell you. The last five months I can tell 
you there were a lot of man-hours. I actually don't know the 
exact number.
    Mr. Labrador. And as we just heard from Mr. Lynch, your 
report is so long that it may encourage some people not to read 
it. We have over 451 pages in your report. Do you think your 
time spent on this report, your time spent investigating this 
would have been necessary had the Department of Justice 
provided this Congress the same information that they provided 
to you in your investigation?
    Mr. Horowitz. That would be hard to speculate on. I will 
say this. Regardless of what had happened along the way, I 
think the facts of Wide Receiver and Fast and Furious, the work 
we did was important to bring out and address. The agents 
brought forward very significant information before the letter 
writing that occurred that you have referenced. So I think we 
probably would have spent a lot of hours on it; our time might 
have been different. Obviously, chapter 6 in our report would 
have changed.
    Mr. Labrador. And in your investigation, you said you were 
a deputy attorney general before. In your time you are always 
asking the question what does somebody know about an 
investigation; what does somebody know about what you are 
investigating; all we were trying to get to was the bottom line 
of what the attorney general knew, what his department knew, 
and we spent countless hours here trying to figure that out.
    And in your report it says that they should have done a 
better job. I just find it fascinating that people are trying 
to exonerate anybody of any wrongdoing, when clearly there has 
been blissful ignorance, there has been blissful avoidance of 
the truth. And I just think it is time for us to get to the 
bottom line of what happened here.
    I really thank you for your report. I thank you for your 
time. And I thank you for doing the job that we asked you to 
do.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Arizona, Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman, for allowing me to sit 
in on this hearing. And I also want to thank you for coming to 
Arizona this week, when we gathered to honor Brian and to have 
a Border Patrol station named for him. This young man 
sacrificed the ultimate sacrifice for our Country, and your 
presence there, I think, gave the family a sense that the 
Congress was concerned and was trying to do their best to find 
answers to the questions that they have.
    I have talked with the family, and when I met with them 
this week, they had one question and one request from us. They 
asked that we make sure that they get the information that they 
have been waiting for, that has been on their minds and in 
their hearts for 21 months. To me, it is outrageous that they 
haven't gotten answers sooner. They want to know what happened 
to Brian; why were guns that were allowed to go into Mexico 
with the full knowledge of personnel in the Federal Government 
and that ultimately ended up at the scene of his murder in Rio 
Rico, Arizona. They want to know who made the decision to 
launch Fast and Furious. They want to know who should be held 
accountable for these decisions and what consequences they will 
face.
    Mr. Horowitz, I want to thank you and your staff for what 
is obviously a tremendous amount of work in preparing this 
report. It is, in my view, a report that has tremendous 
credibility and objectivity. And I think, finally, the Terry 
family is beginning, but just beginning, to get the answers 
they deserve that are long overdue, but I don't believe they 
have yet received the answers to all of their questions, and I 
would like to address those in just a moment.
    Agent Terry, as we know, made the ultimate sacrifice for 
his Country. Nothing we can do will bring him back, but he and 
his family deserve to know what happened and who was 
responsible. Your findings prove that serious flaws in policy 
and inadequate oversight, and flagrant disregard for public 
safety allowed American weapons to fall in the hands of violent 
Mexican criminals and drug cartel members as a part of 
Operation Fast and Furious. It should never have been the 
policy of this Government to allow these firearms to be 
smuggled knowingly into Mexico, and the program should never 
have been approved and it must never happen again.
    So I have a question or two for you, Mr. Horowitz. You said 
that steps have been taken already to prevent a reoccurrence. 
Can you say specifically a couple of those steps that you 
believe will prevent a reoccurrence that are already in place?
    Mr. Horowitz. Well, as we have put in our report, the ATF 
has instituted a variety of restrictions on when this type of 
activity can occur, so that is first. Second, there have now 
been put in place steps to require various levels of 
supervisory review that didn't exist before. So, for example, 
those are two that ATF has done, as identified. We have 
suggested others and a more thorough review of the policies and 
practices to make sure that others are caught, such as 
requiring ATF to abide by the undercover operation rules that 
the attorney general has in place.
    Mr. Barber. Thank you for that. The family believes, and I 
agree with them, that they may have been deliberately kept in 
the dark about Brian's death and the circumstances surrounding 
it. Did your investigation reveal that this was discussed 
within the Department, and why it was not determined that the 
family should know more sooner?
    Mr. Horowitz. I don't recall us seeing evidence of 
discussion specifically about what to tell the Terry family. I 
would have to go back and refresh myself on that, but I don't 
recall that being the basis, if that was occurring, if that was 
what was being discussed in the emails we saw.
    Mr. Barber. And one more question in the remaining time. We 
have heard that there were internal disputes within the 
Department of Justice at the field level that allowed Fast and 
Furious to walk guns into Mexico, specifically that there was a 
dispute between the ATF and the U.S. Attorney's Office. Can you 
speak to what you found regarding this issue, please?
    Mr. Horowitz. Yes. That is a very important issue that we 
take on and address, because there has been the suggestion from 
agents that while they couldn't seize or take action because 
the U.S. Attorney's Office had a restrictive view on what they 
could do or not do. That was an issue and that was a concern in 
other cases.
    What we found here in Fast and Furious was that didn't 
exist. From the outset, both the U.S. Attorney's Office and the 
agents at ATF decided they wanted to get to the top of the 
organization, and the way to do that was to take no action as 
to the straw purchasers. It wasn't, in our view, a legal 
problem, an issue about the evidence; it was a tactical 
decision that was made by both entities.
    Mr. Barber. I want to thank you for your testimony.
    Chairman Issa. Would the gentleman yield?
    Mr. Barber. Mr. Chairman?
    Chairman Issa. Would the gentleman yield for just a quick 
question?
    Mr. Barber. Please.
    Chairman Issa. You have commented several times on this 
bottom-up, the agents deciding to do it. In your opinion and 
your staff's opinion, was any part of it, if you will, the 
arrogance and the ambition, the our job is limited to we go 
after guns, alcohol, tobacco, and firearms, but basically guns, 
and they ran up the chain of drugs and drug cartels by this 
ambition that they were going to roll up people and entities 
that were well outside their basic jurisdiction? Was there any 
sort of a feeling by your people that this was the exuberance 
of ambition; I am going to get a big hit and I am going to move 
up and I am going to be director at the ATF, or something like 
that?
    Mr. Horowitz. Well, I think there was a concern that we saw 
about a desire early on, for example, to go for a wiretap. That 
is generally thought of as a very sophisticated technique and 
shows sophistication in a case, even though we found there was 
all this evidence, by that point, hundreds of guns, lots of 
cash from people who had no income. So the question was why not 
take action then, but instead focus on the wiretap? So that 
concerned us.
    Another concern, and perhaps evidence of that thinking, 
although no one, of course, told us that was a reason.
    Chairman Issa. No one ever brags about their ambition.
    Mr. Horowitz. Right. As shocking as that may be. But right 
at the outset, the effort to keep ICE out of the case. As 
indicated, their emails right away, in November, at the outset 
of this, we have to keep ICE at bay; don't have them 
investigate. Well, they have an important piece of the law 
enforcement effort in gun trafficking at the border, and you 
can't take that position if you want to be effective at the 
border, in my estimation.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Mr. Inspector General, I apologize if I sound terse or 
hostile. I am a huge fan of the inspector general program; I 
think it is a great asset. But there do remain some questions 
that I have gotten in my office, about is this investigation 
just the fox guarding the hen house. I think your report does 
go into great depth, but I do want to hit the outlines of it 
and some things that may lead to where we need to go further in 
this Committee in continuing to investigate Fast and Furious.
    My first question is the Supreme Court has made very clear 
with respect to executive privilege, there is not an 
unqualified presidential privilege. The deliberative process 
privilege requires that the protected material be both limited 
to communications occurring before the policy adoption and 
deliberately reflecting the process by which the policy 
alternatives are assessed at the highest level.
    As you know, the President has claimed executive privilege 
to a broad group of documents this Committee has subpoenaed, 
some of which I imagine you looked at in your investigation. 
You have had access to thousands more documents than we have.
    My first question is roughly how many of these documents, 
in your opinion, would be covered by executive privilege?
    Mr. Horowitz. Congressman, we, fortunately, didn't have to 
make a decision about what we thought was or was not within 
executive privilege because our decision right at the outset 
was to ask for all the documents that we needed, we got them, 
and to include them in the report.
    Mr. Farenthold. But you all looked at them.
    Mr. Horowitz. We looked at everything that was relevant.
    Mr. Farenthold. Gut feeling, then, if you can't answer 
specifically. Were there some in there covered by executive 
privilege?
    Mr. Horowitz. I don't know that. That was never our call. 
We were never shared with any information about that.
    Mr. Farenthold. All right. You noted also in your report 
that the White House refused to share internal communications 
with you during your investigation of Fast and Furious. We have 
noted a connection into the White House through Kevin O'Reilly 
at the National Security Council. Do you think the White 
House's refusal to share these documents limited the scope of 
your investigation and would this Committee be well served by 
pursuing an investigation in that avenue?
    Mr. Horowitz. Well, as we noted in the report, and as you 
know, Congressman, we did not get internal communications from 
the White House, and Mr. O'Reilly's unwillingness to speak to 
us made it impossible for us to pursue that angle of the case 
and the question that had been raised.
    Mr. Farenthold. So it would probably be worthwhile for us 
to pursue.
    Mr. Horowitz. Well, certainly, we have sought to pursue 
every lead we could, so I can just tell you from our standpoint 
it was a lead we wanted to follow.
    Mr. Farenthold. Thank you very much. As Mr. Burton pointed 
out, the DOJ has been accused of cooperating with outside 
groups like Media Matters for advice and spin on stories so 
they will come out in a positive manner. And I imagine the 
press office and all of the DOJ is concerned about that. It 
actually kind of troubles me that there is such a political 
facet to what goes on in the DOJ. Of all the executive 
agencies, you would hope DOJ would be the one most above 
politics.
    But my question is do you know if the DOJ shared this 
report, prior to its release yesterday, with any outside groups 
and/or who within the DOJ that would have made substantive 
changes to the report?
    Mr. Horowitz. We provided, for purposes of our comment and 
review, a draft of the report to the Department. We allowed the 
Department, internally, to share it with people who had 
relevant information, but to tightly control who saw it, and 
that it was not to be shared outside the Department.
    Mr. Farenthold. Okay, so, to the best of your knowledge, 
Media Matters didn't vet this.
    Mr. Horowitz. They should not have, and if they had been 
allowed to see it, it would have been a violation of the 
understanding that we had about the review.
    Mr. Farenthold. All right, great. Now, I have been 
approached by commentators and constituents alike who question 
possible political motives behind allowing something like 
Operation Fast and Furious to continue. Some of them have 
claimed that there may have been a desire at some level to 
create a public outcry for stricter gun laws. Would your 
investigation have been able to uncover political motives 
behind allowing the operation to continue, and did it? Or is 
the entire fiasco a result of just gross mismanagement?
    Mr. Horowitz. We did look at that issue and that question 
to see if we had documents or other evidence on that point. We 
didn't, obviously, go into the investigation looking for the 
emotive specifically, but we did think it was important to 
address it. We do highlight in the report those instances where 
there is talk about perhaps changing rules, regulations, or 
laws. What we found is all of those incidences came after the 
investigation had begun. So the notion was, well, maybe this is 
a good example to show why we need to change the laws. But we 
didn't find evidence at the outset that that was what was 
driving.
    Mr. Farenthold. Did you find evidence that at any point 
where the Fast and Furious Operation was in effect that this 
was happening?
    Mr. Horowitz. There was suggestion, later on in the 
investigation, that it might be a good example to show why 
rules, laws, regulations as an example of why they might need 
to be changed.
    Mr. Farenthold. I see my time has expired.
    Chairman Issa. Would the gentleman yield?
    Mr. Farenthold. Certainly.
    Chairman Issa. So to characterize, they were opportunistic 
after the fact, but you found no evidence that before the fact 
they did Operation Fast and Furious in order to get laws 
changed.
    Mr. Horowitz. Correct. In the documents we reviewed, we did 
not see at the outset. In fact, the documents we saw indicated 
at the outset the notion was let's not take action to get to 
the top, simply because they wanted to get to the top.
    Chairman Issa. Is Fast and Furious, 2,000 weapons being 
knowingly allowed to walk and leading to the death of Brian 
Terry, is that a good poster child for why you need to have 
tighter rules on gun dealers, since gun dealers were in fact 
ordered or coerced into participating in this, rather than 
listening to them when they say this guy is a straw buyer and 
arresting him?
    Mr. Horowitz. Well, we found that in terms of a law 
enforcement technique or law enforcement tactics, that the 
decision-making that justified what was going on just failed in 
the primary mission of law enforcement, which was to protect 
the public.
    Chairman Issa. I thank the gentleman. I thank the IG and I 
thank the gentleman.
    We now go to that splendid individual from the great State 
of Missouri for his questions and probing. With that, Mr. Clay 
is recognized for five minutes.
    Mr. Clay. Thank you, Mr. Chairman. I am so glad to be back 
after the August break and to get right down to business.
    Mr. Chairman, I think we can all agree that gun-walking, 
whether during Operation Wide Receiver or Operation Fast and 
Furious, was an incredibly reckless tactic that put both 
American and Mexican lives at risk.
    In February, the attorney general testified before this 
Committee that the Department had removed, reassigned, or 
accepted the resignation of a number of people within ATF and 
the U.S. Attorney's Office in Phoenix that had operational 
oversight of Operation Fast and Furious, including the Acting 
ATF Director, Ken Melson, and U.S. Attorney for Phoenix Dennis 
Burke.
    Mr. Horowitz, it is my understanding that ATF has been 
under new leadership since August of last year, when the 
attorney general announced the appointment of B. Todd Jones, a 
former military prosecutor and U.S. attorney for the district 
of Minnesota, to serve as acting director of ATF. Is that 
correct?
    Mr. Horowitz. That is my understanding, Congressman.
    Mr. Clay. And the attorney general also stated on several 
occasions that he was waiting for the release of your final 
report to make final determinations about further personnel 
actions. Is it consistent with prior practice for agency 
leadership to reserve certain personnel actions regarding 
individuals under investigation for alleged misconduct until 
there is an expected general report?
    Mr. Horowitz. Well, since I am only five months on the job, 
Congressman, I am not sure I can speak to the experience.
    Mr. Clay. So you are not clear on the history of it?
    Mr. Horowitz. I don't know what prior instances where my 
office has done reviews, what different approaches might have 
been taken, if any.
    Mr. Clay. Well, your report not only makes policy 
recommendations for the Department of Justice, but also 
assessed ``the performance of each of the Department employees 
who were most involved in Operation Wide Receiver and Operation 
Fast and Furious.'' Several media outlets have reported that 
you recommended individuals for discipline by the attorney 
general. Mr. Horowitz, did your office make any specific 
personnel recommendation in light of Operation Wide Receiver 
and Operation Fast and Furious?
    Mr. Horowitz. No. We simply reported on the facts of what 
we found and where we thought there were failures or other 
issues related to the performance, but not made specific 
recommendations as to what should or shouldn't happen as to 
the----
    Mr. Clay. And is that common practice, to not make 
recommendations on personnel?
    Mr. Horowitz. Again, being fairly new in the job, my 
understanding is that on occasions there may be instances where 
we have in the past, so I am not sure I can speak to the 
history of that.
    Mr. Clay. I see. Okay. Yesterday the attorney general 
announced that former Acting ATF Director Melson is retiring 
and that Deputy Assistant Attorney General Jason Weinstein has 
resigned. The attorney general also stated that there may be 
more personnel actions for career employees at ATF and the 
Phoenix U.S. Attorney's Office, although for Privacy Act 
reasons he cannot disclose them at this time.
    He stated, ``Those individuals within ATF and the U.S. 
Attorney's Office for the District of Arizona whom the OIG 
report found to have been responsible for designing, 
implementing, or supervising Operation Fast and Furious have 
been referred to the appropriate entities for review and 
consideration of potential personnel actions. Consistent with 
the requirements of the Privacy Act, the Department is 
prohibited from revealing any additional information about 
these referrals at this time.''
    Mr. Chairman, looking at how this has all developed, it 
gives me pause and makes me wonder did this Committee shoot 
from the hip? Did we move too soon?
    Chairman Issa. Would the gentleman yield?
    Mr. Clay. I mean, that is just food for thought for you, 
Mr. Chairman, and the rest of the Committee who voted so 
recklessly when it was time to take action against our attorney 
general. I yield.
    Chairman Issa. I thank the gentleman. I might note that 
contempt was narrow; it was for the attorney general's refusal 
to give us the very documents that the IG required in order to 
do this very comprehensive report. I would say just the 
opposite, that contempt was most appropriate, in retrospect, 
when in fact the very documents we now know and are applauding 
in this report were the documents denied us.
    Mr. Clay. Well, reclaiming my time, Mr. Chairman.
    Chairman Issa. Before you came in----
    Mr. Clay. Reclaiming my time.
    Chairman Issa. Of course.
    Mr. Clay. This report seems very thorough. What is it, 
about 1,400 pages? It seems like the OIG got all of the 
information----
    Chairman Issa. We previously noted that it is thorough at 
the minimum possible number of pages.
    Mr. Clay. Well, thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman. And I guess we are 
going to agree to continue to disagree on this. I wish you had 
been here earlier when the IG was explaining that he did need 
the documents he got and was happy to have them, and felt that 
we should have gotten them too.
    Mr. Clay. And better late than never.
    Chairman Issa. Well, Jason Weinstein should have resigned a 
year and a half ago. The house cleaning should have happened a 
year and a half ago, if in fact Justice was going to have good 
judgment sooner, rather than later. But I respect the 
gentleman's desire to disagree and I thank you.
    Now we go to a gentleman with whom I am more likely to 
agree at the moment, the distinguished gentleman from Oklahoma, 
Mr. Lankford.
    Mr. Lankford. Thank you, Mr. Chairman. And, yes, it would 
have been nice to have all these same documents that you had 
access to when we asked for them a very long time ago. I think 
a lot of people have asked these same questions and just wanted 
some answers. So thank you for your work and thank you for 
pulling that together, and I look forward to our Committee 
continuing to work, to be able to finish our reports out as 
well and hopefully have access to those same documents.
    Let's get to the issue of fixing it. It is one of my 
primaries. When the attorney general was here, he and I had a 
conversation about how do we resolve this, the issue of putting 
out a statement that gun-walking is now forbidden, of any type. 
We will interdict weapons every time, okay, great, that is a 
first step.
    But there are multiple other issues. We start dealing with 
fixing it, things like the supervision of the process of 
investigations is very different for the FBI than it is for 
ATF, and my basic question is why. Why does FBI have one 
process supervising investigations; ATF has a very, very 
different process on that? It is overseen by the same DOJ. Why 
do we have these two different sets?
    The scope of the task that you mention in your report with 
ATF, that there is a regulatory function and a criminal 
function overlap at times, and there were obvious issues that 
happened at this. I will allow you to make a comment on one of 
those, then I have one more issue as well, the size of the 
agency and what they were trying to accomplish.
    As I read through your report, I got to page 338 and there 
was a very interesting comment there that basically alluded to 
the fact that ATF in Phoenix was over their head. They had too 
few people, they were trying to take on this massive task, and 
it looked like they were trying to accomplish something big, 
but they didn't have the right people, were not coordinating; 
that this particular group of ATF agents were in way over their 
head and should not have been engaged in that. Again, it begs 
back to the scope of the task.
    So I have one more issue I want to visit on, but I want to 
talk a little bit about the issue of this, whether to reverse 
its criminal responsibility and the task that has been given to 
ATF and the number of agents they have on it. Do you have 
recommendations on that based on your investigation?
    Mr. Horowitz. We do. And I think each of the issues you 
identified, Congressman, are very important and reforms that 
need to happen. The Department has four large law enforcement 
agencies under it: the FBI, the DEA, the ATF, and the Marshal 
Service. They should have consistency among their rules and 
requirements, of course, taking into account their different 
missions. That needs to happen. The fact that ATF was not 
brought under the attorney general guidelines for undercover 
operations eight years into their tenure in the Department I 
think was significant, from our standpoint.
    So we have recommended and our second recommendation is for 
the Department to go back and review the other components, look 
at who has the best practices. You have an organization, you 
have multiple law enforcement agencies. There needs to be some 
effort to look at best practices and figure out who has them. 
If it is ATF, the other components should use them. If it is 
the FBI, the other components should use those. So I agree with 
you completely.
    Mr. Lankford. So you are talking about a downsizing of 
their task. Let's make their task more specific and clearer, 
and also have clear parameters of supervision as you do with 
the other departments.
    Mr. Horowitz. There shouldn't be four different rules if 
one is better than the other.
    Mr. Lankford. Right.
    Mr. Horowitz. They should conform.
    Mr. Lankford. And if this is redundant, then let's make it 
clear from there.
    Mr. Horowitz. Correct.
    Mr. Lankford. There also seems to be, as I read through 
your report, a bunker mentality, that as soon as Grassley's 
letter hits, there is a shutdown and a let's not allow Melson 
to go out and talk to them right away, let's try to limit this 
and let's try to work through the process, and try to limit it 
and dial that down.
    When Senator Grassley's letter mentions Gunrunners, like, 
okay, let that sit out there when we really know it is Fast and 
Furious so we don't start to get into the details. And the 
stunning one was not just the February letter of 2011, it is 
the May letter and it is the June 15th testimony here to this 
Committee that it was apparent, by that point, that they either 
knew or should have known at that point, in senior leadership, 
that what they were writing to Congress and what they were 
testifying was not the whole truth; it was a limited form of 
that that if you interpreted it the right way it might actually 
stand up under light, but now, in retrospect, wasn't clear.
    That is a treatment to Congress and to those investigating 
that we are going to close in and surround ourselves with the 
wagons, and we are not going to let anyone in. Did you get that 
sense at all?
    Mr. Horowitz. Well, when we looked at that May 2nd letter, 
again, we reached the conclusion, as you noted, that by that 
point there was enough information in the Department that it 
knew or should have known that it could not stand by that 
February 4th letter.
    Mr. Lankford. And they were not telling us, they were 
writing in such a way to make it look like they were saying one 
thing, when they were really saying something different.
    Mr. Horowitz. Well, from our standpoint, the letter does 
appear to be literally true, as the Committee itself, I think, 
indicated in a report, but our concern was knowing the 
information they knew after four letters between February 4 and 
May 2nd where the Department made no substantive comments, but 
by that point the appropriate response either was to continue 
saying no substantive comments until the IG report comes out or 
to acknowledge the information it had already found.
    Mr. Lankford. Right. And when senior leadership, they do 
not inform the attorney general when Brian Terry is murdered, 
that there is a federal nexus to this as well in this ongoing 
investigation, again, that seems to be we are just kind of 
surrounding it and we are trying to make sure we are closing 
the information down, rather than letting the information get 
out. It seems to be from the very beginning this was a shutdown 
of information.
    Mr. Horowitz. There were many points in this case, at all 
levels, where information flow not only wasn't what it should 
have been, but in some instances, as we outline in there, was 
inaccurate, even when information was flowing.
    Mr. Lankford. Thank you.
    I yield back.
    Chairman Issa. I thank the gentleman.
    I want to make sure I go correctly here. We now go to the 
gentleman from Pennsylvania, Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    Mr. Horowitz, thanks for being here. I think what we have 
difficulty with--and I know as attorneys talk to each other it 
makes sense to them, but people in their regular world can't 
begin to understand what the heck it is that we're talking 
about. In my world, any answer but a yes is a no, so if it 
takes a long time to explain it, it is because you are hitting 
on stuff that is a little sensitive.
    You have done this for a long time. I know you have only 
been on this for five months and 13 months before it. How long 
does it take to do an investigation? Is this one of such a 
magnitude that we couldn't come to a conclusion quicker than 
this?
    Mr. Horowitz. I will tell you my understanding is in prior 
investigations, like the U.S. attorney investigation, that was 
a two-year or so investigation by the IG's office. Given the 
volume of documents that we had, 100,000-plus documents, and 
the scope we wanted to undertake, which was to take it through 
the congressional responses, it took a lot of time to do that.
    And very importantly for us, this report had to be 
thorough, it had to be fair, and it had to be accurate, and it 
just took--I can tell you from the five months I was there 
working nonstop on this, it was an extraordinary amount of 
documents. But we wanted to make sure, and this is the 
commitment I made, I wanted this report to lay out all the 
facts.
    Mr. Kelly. And I think--I don't speak for myself, but also 
for the Committee, that the 18 months that we were waiting to 
find out, and being stonewalled time after time after time, and 
requesting information and not being able to get it, and 
getting documents delivered in pickup trucks in the thousands 
with most of the pages redacted, this one just doesn't pass the 
smell test. There is something wrong here that we are not 
getting to.
    And I listened to Jason Weinstein; he has resigned. Lanny 
Breuer, Gary Grindler, other officials at the Department are 
not going to receive any disciplinary action? Is that a 
disappointment to you after looking through what you have 
looked through for the last five months and building on the 13 
months before that?
    Mr. Horowitz. The way the operations are set up and the law 
is set up by Congress, we investigate, we then hand over our 
findings to the Department, and it is for the Department head 
to make those decisions.
    Mr. Kelly. And so in this case the Department head would be 
whom?
    Mr. Horowitz. The attorney general.
    Mr. Kelly. Okay.
    Mr. Horowitz. And then it is up to the public and the 
Congress to decide?
    Mr. Kelly. Well, not so much. I think we can because 
perception, I think, in many cases is reality, and I think when 
you sit back and you watch as this unwound or did not unwind, 
and as the Chairman continued to ask questions and was 
stonewalled, you begin to get a feeling that, you know what? 
While we keep saying this isn't political in nature, I have 
found very few things in this town that aren't political in 
nature.
    And especially we talked about an administration, remember, 
this was going to be the most clear and transparent 
administration we have ever had. But when you ask questions and 
you can't get the answers, when you have the attorney general 
come here and he can't answer the questions, when you look at 
things that are going on, I think the American public deserves 
better than that. I mean, they have the right to know and we 
certainly have the responsibility to find out for them.
    But at some point the buck has to stop somewhere. The 
attorney general is appointed by the President of the United 
States. He comes in and he gets vetted, but all of these 
different agencies, when there is a turnover in 
administrations, there is a whole group of people that come in 
with them. In other words, if I am taking over a company, I 
also come in, I bring in all the managers I want in all the 
departments.
    Now, there may be some of those people still working in the 
same departments, but there is a way that we do things 
differently. And the law may not have changed, but maybe the 
policy and the way we enforce it and the way we go about it 
changes according to the philosophy or the methods of that 
administration.
    So I look at this, and Jim has talked about and we have all 
talked about it. Why? Why so long? Why so hard to get 
information that should have been very basic? And one may ask 
questions that at least required a yes or a no. And, again, a 
simple yes would have been fine, but the dragging out and 
dragging out. Is there any wonder why the American people have 
lost faith in the way we do things here?
    So you have looked at this and I have to tell you I don't 
know. I watch it and I look at all the things that have 
happened, and whether it is Melson or Weinstein or whatever, if 
I am a whistleblower, you know what I am thinking? I will 
probably never do that again. Instead of these people being 
given a plaque and being brought forward, say thanks for what 
you did, they get thrown under a bus.
    So we have to understand that is part of the process, 
because what we have to do is we have to make sure the people 
at the top get protected, but you people at the bottom are very 
vulnerable. I would really be, as a person who worked in those 
departments, I would be very lax, I would be very aware as I go 
forward.
    You looked through this whole thing. Anything you see in 
your place? Are you disappointed that it looked more political?
    Mr. Horowitz. Well, I have that concern precisely, 
Congressman. There needs to be an assurance that people who 
want to come forward come forward and don't feel like they are 
going to be retaliated against, demoted, action taken against 
them, whatever it is. This case is an example of the importance 
of people willing to step forward.
    Mr. Kelly. And I was very moved, I have to tell you. One of 
the first hearings here was Agent Terry's family was here and 
the people that worked with him were here. They came here with 
a complete disregard for their future, but a complete 
dedication to the fact that this should not have happened to 
Brian Terry, and they needed to get to the bottom of it.
    It is just troubling to me that after 18 months things that 
we could have known way back then, and things that have been 
distorted and manipulated didn't need to be done; and it just, 
to me, is, again, an indication of if we really mean what we 
say and say what we mean, we have to do it. We just can't do 
words and think that that is the way to placate people.
    With that, Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    Mr. Horowitz, you have called for, in your report, the 
unsealing of portions of the wiretaps that you sum in your 
report. I would like to also ask you to take possession of 
letters, exchanges in which this Committee has some difference 
of opinion, but concludes that wiretap affidavits describe 
specific incidences that would suggest the prosecutor who was 
focused on the question investigating tactics at the ATF would 
have recognized that there was an intent not to interdict 
weapons from straw buyers, and particularly ones in which straw 
buyers who were known to already be doing it were allowed to 
continue doing it, including the weapon sales that ultimately 
led to Brian Terry's death.
    I would ask you to receive these letters. They are also, 
arguably, speaking about items under seal, but in hopes that 
you would expand your request for the Justice Department to 
unseal portions that may be also covered by those letters.
    Mr. Horowitz. I have been given the letters and I will take 
a look at them.
    Chairman Issa. I thank the gentleman.
    With that, we go to the ever patient Mr. Walberg, who, of 
course, represents my alma mater, so I may have recognized you 
last in the order, but certainly not least.
    Mr. Walberg. I thank the Chairman.
    Also, I represent a district in the great State of Michigan 
which is proud of a favorite son or homegrown son, Brian Terry, 
and we take that as important.
    Also appreciate very much, Mr. Horowitz, your work, 
extensive work, but valuable work.
    Representative Lankford touched on the May 2nd Grassley 
letter and I appreciated that, and your response to that saying 
you were very troubled with the Department's response as well. 
Do you believe your office had complete and unfettered access 
to the documents that you required to ensure a thorough review?
    Mr. Horowitz. I do, Congressman. We asked for everything we 
thought was responsible and we ultimately got everything we 
asked for.
    Mr. Walberg. So you believe everything that was necessary 
you received?
    Mr. Horowitz. That was represented to us, including, as 
noted in the report, we asked for some personal emails, given 
the fact that, in at least one instance, we were aware of a 
transfer to a personal email account.
    Mr. Walberg. Well, again, I would reiterate that was all we 
were asking here in this Committee as well, for those same type 
of documents so we could have done this review, and I think it 
would have ultimately brought about a substantiating report to 
what you were able to bring.
    As I understand it, you personally reviewed the Fast and 
Furious wiretap applications.
    Mr. Horowitz. That is correct.
    Mr. Walberg. Former ATF Director Ken Melson said that after 
he read the wiretaps, he was sick to his stomach. Did you have 
a similar reaction?
    Mr. Horowitz. Well, after I read them, I came to the 
conclusion that there was, in my view, more than enough red 
flags to identify serious questions about the tactics being 
used in the case.
    Mr. Walberg. In relation to that, your report recommends 
that ``the Department should require that high level officials 
who were responsible for authorizing wiretap applications 
conduct reviews of the applications and affidavits that are 
sufficient to enable those officials to form a personal 
judgment that the applications meet the statutory criteria.'' 
That was on page 431.
    Has the Department given you any feedback on this 
recommendation or indicated that it will implement it?
    Mr. Horowitz. Well, in their letter to us that is attached 
as Exhibit A, they have indicated they agree with all our 
recommendations, and one of the things we have asked for is a 
report back in 90 days on the status of the response to our 
recommendations. So they have indicated they are supportive of 
the recommendation. That is important. And now we will follow 
up in 90 days.
    Mr. Walberg. Do you know whether Assistant Attorney General 
Lanny Breuer agrees with this recommendation?
    Mr. Horowitz. I don't know personally. The letter is from 
the Department on behalf of the Department as a whole.
    Mr. Walberg. So we would assume that Attorney General 
Holder agrees with the recommendation?
    Mr. Horowitz. That is my understanding.
    Mr. Walberg. I appreciate that. We will wait to see. And 
thank you for your response.
    I yield to Mr. Gowdy.
    Chairman Issa. Are you going to yield to Mr. Gowdy?
    Mr. Walberg. I was going to do that, Mr. Chair.
    Chairman Issa. Okay.
    Mr. Gowdy. I am not real smart, but I am smart enough to 
let the Chairman go if he had a question.
    Chairman Issa. No. I just wanted to make sure I didn't get 
it yielded back. The gentleman is recognized.
    Mr. Gowdy. I thank the Chairman; I thank the gentleman from 
Michigan.
    Mr. Inspector General, I hate to inject facts as predicates 
for questions that members of Congress ask, but the record will 
reflect, I know you already know this, the attorney general was 
never held in contempt of Congress because of his actions with 
Fast and Furious; he was held in contempt of Congress because 
he failed to turn over documents to committees of Congress, 
documents which he turned over to you; documents, some of which 
he is now beginning to turn over to us, 300 pages we got 
yesterday. So I hate to make the record clear, but he was never 
held in contempt of Congress because he sanctioned gun-walking. 
He was held in contempt of Congress because he thwarted our 
attempts to find out what you found out.
    Secondly, you said the February 4th letter was reviewed by 
dozens of people, including people within the Criminal Division 
at the Department of Justice. Do you know whether Lanny Breuer 
read the February 4th, 2011, letter before it was delivered to 
Senator Grassley?
    Mr. Horowitz. We found no evidence that he had reviewed it. 
He told us he did not recall reviewing it, and we found nothing 
in the emails indicating he had actually reviewed it or made a 
comment about the content of the letter.
    Mr. Gowdy. Did he give you any indication as to why he 
would forward a draft of that to his personal private email 
account?
    Mr. Horowitz. I would want to go back to precisely answer 
that and look at the transcript. My general recollection is for 
purposes of reading it, but he didn't recall whether he had 
read it after it had been sent out on February 4th.
    Mr. Gowdy. Now, you have been around the block a time or 
two; white collar cases. You twice have used the word recall. 
That is not the same as saying I didn't read it; that is saying 
I don't recall reading it. There is a difference, is there not?
    Mr. Horowitz. There is.
    Mr. Gowdy. Again, I am stumped as to what reason you would 
forward a letter to your personal email account if you are not 
an historian, you are not an archivist, you are not teaching 
grammar to the person writing or drafting the letter. What 
other explanation is there for forwarding it, other than to 
read it?
    Mr. Horowitz. And that, you would assume, would be the 
reason to do it.
    Mr. Gowdy. Well, my time is up. I have more questions, but 
I will yield back, and I thank the gentleman from Michigan for 
his time.
    Chairman Issa. Mr. Horowitz, just to make the record clear, 
you said that he didn't comment. But isn't the response good 
job a comment? And, if so, did that come before, during, or 
after the letter went out?
    Mr. Horowitz. The comment you are referring to came, I 
believe, on February 2nd, while the letter was still in draft 
form. I think, from our standpoint, it didn't indicate an 
understanding of the content. And if we didn't use the precise 
words in the report that we should have, I understand that.
    Chairman Issa. I am concerned only because the attorney 
general's office, and Lanny Breuer as part of it, lied to 
Congress and he said good job with a draft that had the lie in 
it, and yet he is able to say I don't remember reading it. Now, 
you are a former prosecutor, maybe one again someday. Do you 
accept that you are able to respond good job, able to do, as 
Mr. Gowdy said, forward it to your personal email, able to 
allow 10 months to go by?
    As an attorney and an officer of the court by definition, 
you are able to do all of that and yet say, well, I would have 
known it was a lie if I read it, but I didn't read it? Would 
you accept that as a prosecutor, or would you go forward and at 
least let the jury decide?
    Mr. Horowitz. Well, I think in doing this review, our 
standard was whether we could draw a decision, a judgment based 
on the evidence we had to put it in this report ultimately, and 
what we decided was we needed to put out the facts of what we 
found; others can draw conclusions. We didn't feel like we 
could draw that conclusion in this report, and I didn't 
speculate as to what I might do as a prosecutor.
    Chairman Issa. But you did reach a conclusion that he knew 
or should have known. He was in that lump group that was at 
least somewhat derelict in a letter going out that he received, 
he forwarded, he commented on, and then says he doesn't 
remember reading, and in fact was a lie to Congress and for 10 
months was all over the front page of newspapers as we insisted 
that we had been lied to, that there was gun-walking, and that 
our whistleblowers were telling the truth while they were being 
retaliated against by the attorney general's representatives.
    Mr. Horowitz. Well, what we found as to Mr. Breuer was, 
frankly, regardless of whether he read the letter or not, given 
what he knew about Wide Receiver, his responsibility should 
have been to come forward and explain what happened in Wide 
Receiver, because the people who were drafting the letter told 
us it would have made a difference, and that is what troubled 
us.
    Chairman Issa. Thank you.
    Mr. Horowitz. It didn't really whether he read the letter, 
frankly.
    Chairman Issa. Thank you. At this time, to make the record 
complete, I ask unanimous consent that the email trains of 
2011, House Oversight and Government Reform DOJ date stamp 
number 004022, be placed in the record. These items regarding 
ATF Gunrunner are between Dennis Burke and a number of people, 
Ron Weiss and so on, but including Lanny Breuer.
    Also Bates Stamp House Oversight and Government Reform DOJ 
004449, dated 2/2/2011, in which Lanny Breuer placed into his 
personal email, the address being redacted, forward revised 
Grassley letter, Grassley ATF clean, 5 p.m. docs, in which 
there are a number of comments we have already alluded to. 
Without objection, so ordered.
    With that, we now recognize as our final questioner in the 
first round the gentlelady from Florida, Mrs. Adams.
    Mrs. Adams. Thank you, Mr. Chairman. I want to thank you 
and the Committee for allowing me to sit in and join the 
Committee.
    Mr. Horowitz, I have sat here and, as you know, I come from 
a law enforcement background, so I sit here and I listen, and I 
am very concerned that we had an operation that appeared to 
have no true oversight from anyone in an upper level, and when 
an exit strategy is requested in March of 2010 and nothing 
happens. I have a few questions as to what happened to this 
agency.
    I think I need to go back to maybe even before, because, as 
I worked with this agency years ago in law enforcement, they 
had these oversight protections. You could not get a wiretap 
without going and getting someone from above to review it and 
approve it, and then have it taken to a judge to be signed.
    So do you happen to know when they decided to do away with 
that practice?
    Mr. Horowitz. I can provide you with the answer; I don't 
recall as I sit here. But there was an evolving practice, as 
you indicated, at ATF that removed that requirement.
    Mrs. Adams. That would be nice to know, as to when they 
decided to remove those practices, because apparently those 
supervisors that should have been reviewing it did not review, 
or claim to have not reviewed it, and therefore we have a loss 
of a life of one of our own Border Patrol agents and many 
weapons across the border and people being harmed everyday.
    I, too, wanted to ask you, because I was reading on page 
265 a statement about Mr. Hoover. He said he told us he did not 
recall attending the briefing on March 5th or the briefing from 
Melson on March 11th, although his Outlook calendar indicates 
that he was invited to the meetings and, as mentioned earlier, 
other witnesses placed him at both those briefings.
    I have heard many of your comments about, well, people 
could not recall, people could not recall. As an attorney, 
someone who has prosecuted cases, when someone tells you they 
can't recall, what is your first impression, as an attorney?
    Mr. Horowitz. Well, it probably depends on the context.
    Mrs. Adams. In the context of something like this?
    Mr. Horowitz. When you have Outlook invites and other 
people recalling you were there, it probably means you were 
there.
    Mrs. Adams. It means you were there. And so in the case of 
Mr. Breuer, when he had this email that was forwarded from 
himself to himself on a private account, and he sends back good 
job, as an attorney, step aside from, and if this had been a 
case that you were investigating as an attorney and 
prosecuting, what would your impression be? Do you believe he 
would have sent it to read it?
    Mr. Horowitz. The only thing that causes me hesitation 
there is that when you go through the email string, you do have 
Mr. Weinstein, when he sends the draft at the bottom of that 
string, Mr. Breuer isn't one of the people to whom he sends, 
and there can be a tendency at times, I am not drawing a 
judgment in this case, but there can be a tendency at times 
when someone sends you an email or reporting on your good work 
to say back good job or something like that.
    So one of the things I wanted to be careful of in this case 
is to make sure everything was well founded, in our view, that 
we had something to support it, but to put out the evidence and 
let people draw their own views and conclusions about that. So 
I respect the varying views that I have heard today about that 
issue.
    Mrs. Adams. I appreciate that. Your friendship with Mr. 
Breuer would not impact your decision-making on any of this, 
would it not?
    Mr. Horowitz. It had zero impact. When I took the oath to 
take this office, I took an oath to do this job, and as I 
committed before the Senate Judiciary Committee, the only thing 
that was going to make my decisions here were the facts and the 
law, period.
    Mrs. Adams. And I appreciate the fact that you were asking 
for personal emails, because I did ask that question in 
Committee.
    And I know that my colleague would like to ask another 
question, so, if I may, I will yield the rest of my time to Mr. 
Gowdy.
    Mr. Gowdy. I thank the gentlelady from Florida.
    Mr. Horowitz, I want to ask you this. I only have about 30 
seconds, so I will do the quickest one that I have. Is your 
investigation still ongoing?
    Mr. Horowitz. There are pieces of this investigation that 
are ongoing, as we have reflected in the report.
    Mr. Gowdy. All right. And I will not ask you anything more 
beyond that.
    Contrary to the assertions of my colleagues, many of us 
have never asserted that the attorney general knew about the 
tactic of gun-walking. We have asserted that he should have. 
And what kind of leadership or management style you have does 
reflect on what kind of information is brought to you. Did you 
make specific recommendations with respect to creating a 
culture within the Department of Justice where information like 
this would work its way up the command chain?
    Mr. Horowitz. Well, one of the things that I hope to do 
through the whistleblower ombudsman position is to make sure 
that there is an understanding and appreciation and a 
willingness for people to come forward and to get that 
information forward. That is one of the tasks I want to 
undertake, is to look at that culture issue, because, I agree 
with you, I think it is important.
    Mr. Gowdy. I thank the gentlelady.
    My time is up, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We will now take a short second round. We won't keep you 
much longer.
    One of the areas of particular interest, Mr. Horowitz, you 
received 100,000 documents; we got about 7,000, many of them 
documents we didn't ask for. But one particular one that 
appeared in your report discussed emails between Jason 
Weinstein, the head of the Office of Enforcement or Operations, 
and William McMahon, who has been unavailable to us, in May of 
2010 regarding applications and a possible roving wiretap. It 
is on page 271 of your report. You are familiar with it?
    Mr. Horowitz. I am.
    Chairman Issa. These documents were explicitly asked for in 
our subpoenas, but the Department never failed to hand them 
over. Do you think it is appropriate for the Department to 
deliberately withhold these documents without citing any reason 
or privilege for doing so and, I might note, claiming that they 
had turned over extensive, unprecedented documents before 
February 4th? Would this document be unprecedented to send 
over, in your opinion?
    Mr. Horowitz. Well, let me just say they were clearly, to 
us, highly relevant. I, frankly, don't know the back and forth 
that occurred or the decision-making that occurred within the 
Department, so I don't think I am in a position to answer 
precisely that question without understanding that.
    Chairman Issa. I will rephrase. This document was relevant 
and important to your investigation that occurred before 
February 4th, is that correct?
    Mr. Horowitz. That is correct.
    Chairman Issa. So when the attorney general has repeatedly 
said that he made unprecedented levels of documents available 
to us, he was thorough and complete, and he came before 
Congress so many times before February 4th and then omitted 
this, he omitted something which was clearly relevant and 
important to the investigation.
    Mr. Horowitz. As I said, I think these documents were, to 
us, highly relevant and important, which is why we spent so 
much time discussing them.
    Chairman Issa. Now, as a former prosecutor, if you deliver 
a subpoena and somebody simply doesn't mention a document, 
doesn't turn it over and it is relevant to the subpoena, but 
yet they assert that they have fully complied with the 
subpoena, isn't that actually a violation of the law, to simply 
not turn something over that you know you have?
    Mr. Horowitz. Well, without understanding all the facts----
    Chairman Issa. Well, I am just talking about the 
hypothetical as a prosecutor. As a prosecutor, you serve a 
subpoena; you either get it or the counsel, the lawyers for the 
other side have an obligation to assert a privilege, provide a 
law, do all these things. You don't simply not deliver it.
    Mr. Horowitz. That would certainly be the expectation.
    Chairman Issa. Are you considering or pursuing or 
investigating criminal referrals related to whistleblower 
retaliation? And I am making all of those so you don't have to 
answer any one of them.
    Mr. Horowitz. Let me say we are actively investigating a 
variety of the whistleblower issues, some of which the 
Committee has referred to us and Senator Grassley has referred 
to us. I would be hesitant to say what we are going to do, but 
I think you will find the reports will be coming in the not too 
distant future, and we are taking them very seriously.
    Chairman Issa. Thank you. Now, I am going to go against 
sometimes the advice of folks who say, well, you know, don't 
link the constant allegations that Wide Receiver and Fast and 
Furious are two peas in a pod. I am going to ask you a question 
that I think is at the kernel of my concern.
    You discovered in your report extensively that a number of 
people, including people at Justice, at the highest levels, 
were aware of Wide Receiver; they knew it had failed, they knew 
it had been shut down, they had U.S. attorney records. And yet 
they allowed Fast and Furious, whether through commission or 
omission, to do the same and more, correct?
    Mr. Horowitz. There was no action apparent to try and 
change any policies, I agree with you, Mr. Chairman.
    Chairman Issa. Okay. So the Justice Department knew that 
guns were walking, by their definition, at least in retrospect, 
and they didn't take steps to stop it. We have a lot of people 
dead on both sides of the border. Aren't you very concerned 
that these are the very elements that it takes for the Federal 
Government, for our government, for Congress's appropriated 
dollars to be paid out in damages, whether to the hundreds of 
people dead in Mexico or at least one U.S. Border Patrol agent 
dead in the U.S.? Isn't this kind of failure one that exposes 
the Federal Government to huge potential damages?
    Mr. Horowitz. I am sure that is the case, and it troubled 
us very much, that so many people understood and knew what 
happened in Wide Receiver, took no actions, and, frankly, in 
Fast and Furious again so many people knew about it as the 
investigation was going on. Put aside what happened after the 
agents came forward, just as it was going on that so many 
people knew and no one seemed to take action, even the deputy 
director, again, when he noticed the needed for an exit 
strategy.
    Chairman Issa. Now, you interviewed Lanny Breuer.
    Mr. Horowitz. Correct.
    Chairman Issa. One of your people interviewed him. After 
Brian Terry was killed, after the February 4th letter, Lanny 
Breuer looked me dead in the eye and told me that, in fact, 
there was nothing wrong with Fast and Furious; it was bad work 
on the ground. When you interviewed him, was that still his 
feeling, that there was nothing wrong with Fast and Furious, 
but simply the ATF agents had bungled it?
    Mr. Horowitz. I don't recall his precise answers to those 
questions. I am happy to go back and get that for the record 
for you.
    Chairman Issa. Okay.
    I am going to yield to the Ranking Member. This continues 
to be my reason that I have so much doubt about Lanny Breuer's 
judgment and his ability to continue doing his job, is that he 
believed that after February 4th, he believed it after Brian 
Terry was dead, and I can't understand, for the life of me, how 
he could have believed it and still have his job.
    With that, I recognize the Ranking Member.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Horowitz, I have a kernel of concern myself. After you 
have been here around here a few years, like I have, you get 
concerned about effectiveness and efficiency. I started my 
discussion off by thanking you and your staff for all that you 
have done, but the question is where does this lead. All those 
hours, all that effort. My mother, a former sharecropper, used 
to teach us, she had limited education, second grade education. 
She would tell us you can't have motion, commotion, and 
emotion, and no results. Motion, commotion, emotion, no 
results.
    There are moments in life, and even in legislative life, 
where things come together and it presents a moment which is 
pregnant with the possibility of change. And if change does not 
take place at that moment, things usually get worse. This is 
one of those moments. I give the Chairman credit; he has 
brought all of this to light. We have a great picture. You all 
have painted the picture quite accurately for us. I don't think 
anybody up here likes the picture that we see.
    To be frank with you, knowing Eric Holder the way I know 
him, the honorable man he is, I don't think he likes this 
picture. So for all of us, you know, reform is so very, very, 
very important, and in that light, because I want to be 
effective and efficient. I don't want to leave here, looking 
back at my tenure in Congress, and say I was involved in one of 
those moments where we did nothing and it just got worse; where 
we did nothing and folks continued to be killed in Mexico with 
guns flowing from the United States; where we did nothing where 
neighborhoods like the one I live in, where it is easier to get 
a gun than it is to get a cigarette; where we did nothing.
    So as to the reforms, I want to ask you just a few 
questions. The Department of Justice has made significant 
changes in ATF and DOJ policy to ensure that the mistakes made 
in Operation Wide Receiver and Operation Fast and Furious never 
happen again. While new permanent leadership within ATF is an 
important step to ensuring accountability, Acting Director Todd 
Jones has also implemented several policy changes at ATF to 
improve case supervision and communication between field agents 
and ATF management. In November 2011, Acting Director Jones 
issued a memo clarifying ATF's policy regarding firearms 
transfers, reinforcing the importance of interdiction, and 
directing agents to take all reasonable steps to prevent 
firearms criminal misuse.
    Mr. Horowitz, your report describes this memo as explicitly 
stating that ``If law enforcement officials have any knowledge 
that guns are about to cross the border, they must take 
immediate action to prevent that from occurring, even if it 
means jeopardizing an investigation.''
    I ask you now what do you think of this guidance? Is it 
sufficient or would additional guidance be helpful?
    Mr. Horowitz. I think it is an important piece of guidance, 
but I think more has to be done. And I couldn't agree with you 
more, Congressman, about the opportunity to effect change in 
light of these events. We put out reports not just to put out 
reports, but to see change happen when it needs to happen.
    And I didn't come back to take this job to write a report 
and have nobody follow through and no one listen to what we say 
and what we recommend, which is why our recommendations are 
bigger than just this case. For example, recommending to the 
Department that it create a regular interagency law enforcement 
coordination effort among its own law enforcement agencies, 
because I think, as you see here, there was a failure to 
coordinate among agencies, sharp elbows, a variety of things 
happened, and I am guessing, from what I understand, and we 
will see when the inspector general's report comes out from 
DHS, that you will see more of that from the ICE standpoint. 
And that has to go away, and that is an issue that we have to 
think about.
    Mr. Cummings. Well, I just want--again, I want to thank you 
all for your efforts, and I know that--and I can assure you 
that all of us up here want to make sure that your efforts have 
not been in vein. I don't know, just how much jurisdiction do 
you have with regard to trying to make sure that the 
recommendations actually happen? I know we have some pressure 
points up here, but how about you? You talked about things that 
you are going to follow up on. How do you see that playing out?
    Mr. Horowitz. What we do, and as we have outlined here, is 
we have asked the Department and the attorney general to report 
back to us within 90 days on the status of the efforts, and 
with a time line for implementing it, because, as we all know, 
if there is not a time line in place, things drag.
    So our goal is to follow up, make sure things happen, 
because, as an IG, our strength is in a report like this and 
then following up on it; and, if recommendations aren't 
followed, to go and report back, whether it is to Congress or 
the attorney general or to others that they haven't been 
followed through.
    Mr. Cummings. Mr. Chairman, I don't know what will happen 
in the election, but I hope that both sides will agree to bring 
back the appropriate parties, he said 90 days, but maybe in 
four months so that we can actually have that accountability 
that we are talking about, so that we can have that 
effectiveness and efficiency.
    Chairman Issa. I agree with the gentleman. I would hope 
that Mr. Horowitz would keep his calendar open in mid to late 
January.
    I forgot to do something at the open, before I recognize 
Mr. Gowdy. As is the custom, I ask unanimous consent that all 
members have seven days to insert written statements and 
extraneous matter into the record. Without objection, so 
ordered.
    Mr. Gowdy, other than closing, you get the last word.
    Mr. Gowdy. Thank you, Mr. Chairman. I want to have just a 
little potpourri here at the end; I am going to bounce around, 
and it is not designed to fool you, although I don't think I 
could if that were my design.
    Do you know when the Mexican government was informed about 
Fast and Furious, or if they have been debriefed on it? Because 
I could imagine it would impact our relationship with law 
enforcement in Mexico.
    Mr. Horowitz. I don't know when they were debriefed and I 
don't know the extent to which they were debriefed about it. 
There were some indications in emails that we saw about the 
possibility of alerting the Mexican authorities, but I don't 
know.
    Mr. Gowdy. All right. There has been some discussion this 
morning about changes. Mr. Cummings, as he always is, was 
extremely eloquent talking about the desire to not see this 
moment pass. I also don't want to see this moment used for 
purposes that are duplicative. Did you ever prosecute 924(c) 
cases?
    Mr. Horowitz. Yes, although infrequently.
    Mr. Gowdy. The penalty for 924(c), which is using a firearm 
during a drug trafficking crime or another violent crime is 
five years consecutive to any other sentence, and each 
subsequent 924(c) is a consecutive five years. And depending on 
the nature of the weapon, if it is semiautomatic, it could be 
up to 20 years; and the third offense would be life.
    By virtue of the fact I went to law school, I am not good 
at math, but five years times 1,000 weapons just strikes me 
that unless your name is Methuselah, that is going to be a 
really long sentence. And I would also be curious, and I may 
ask you at some point to look into whether or not line AUSAs 
are asking for upper departures in lying and buying cases.
    The remedy is not always to raise the statutory maximum if 
we are never coming close to the statutory maximum in the first 
place.
    Finally, I want to say this, because I want to conclude on 
a more harmonious note. Your job was to identify facts, and you 
do draw some conclusions, and almost all of your conclusions I 
agree with. And I am not suggesting we disagree on this.
    I have a little different analysis with respect to the 
Criminal Division chief. I think it is without question that he 
knew the tactic of gun-walking existed within the Department, 
whether he wants to say Wide Receiver or Fast and Furious is 
irrelevant to me. He knew the February 4th letter was false as 
drafted.
    I appreciate the fact that there could be explanations, 
other than reading a letter, that you would forward a letter to 
your private personal email account, and I appreciate the fact 
that from time to time we don't read emails in full; we just 
say good job or thanks for sending it. I just have a higher 
expectation for that department and for the criminal chief.
    I think it is wonderful that we have someone of your 
independence. I actually thought that is what prosecutors and 
ministers of justice were to begin with. So I am going to 
conclude by saying the same thing when I started. You have an 
incredibly hard, important job. You were exceedingly candid in 
our personal conversations and you have been exceedingly 
professional in your public testimonies, and I wish you and the 
people that work with you all the best, because on this we can 
agree: the Department of Justice is not just another political 
entity.
    When we lose confidence in that blindfolded woman holding a 
set of scales and a sword, we are finished. It is not about 
politics; it never was. I appreciate the fact that Mr. Cummings 
would compliment Mr. Issa. This is a very politically charged 
environment that we work in and that you work in, and the fact 
that our work could draw bipartisan support is a testament to 
you and your staff.
    With that, I would yield back, Mr. Chairman.
    Chairman Issa. Would the gentleman yield for just a second?
    Mr. Gowdy. Yes, sir.
    Chairman Issa. Thank you. I never thought we would actually 
get through your questions. You were good.
    I want to summarize a couple things. Obstructing Congress 
is a crime. I will make the statement; you don't have to 
evaluate that one. Clearly, Justice, during this time, 
obstructed Congress. They made an untruthful statement on 
February 4th, they doubled-down by having, at a minimum, an 
extremely deceiving statement.
    As I have often said, the only way it is truthful they 
didn't let guns walk is that the guns didn't physically have 
legs and feet and shoes. They, in multiple areas, did not 
respond honestly and truthfully to a subpoena, leaving 
information out, information they made available to you. And, 
of course, the separate contempt question of refusing 
afterwards. But in that case I will accept that they were going 
to argue the question of presidential executive privilege.
    What do you think we should do, and what can you do, when 
agencies outright refuse to provide information pursuant to an 
investigation of a crime?
    Mr. Horowitz. What I did when I walked into this job, and 
was committed to doing, was pressing forward and writing a 
report that covered everything, and putting it forward and 
letting, if folks thought there was material to redact, that 
was their responsibility. My job was to get to the facts and 
put it out there so the Congress, the American public could see 
what we saw, understand what we saw, hear the facts that we 
found and the conclusions that we reached. That is my job as 
inspector general. I wanted that out there and I am glad it is 
out there. And now, obviously, as to what occurred or didn't 
occur in terms of productions in other instances, the evidence 
is there as to what we saw and we found.
    Chairman Issa. But will you be looking into or doing any 
potential criminal referrals, which is within your authority, 
related to the February 4th letter and those who either lied or 
who became aware, particularly lawyers, officers of the court, 
became aware that an untruthful statement had been made and 
sought to make no effort to correct the record?
    Mr. Horowitz. And let me just touch on that, on the 
February 4th letter, because that is important. We looked at 
that and tried to figure out what people's intent was and state 
of mind, because so much of that is driven by intent; and the 
difficulty with that letter, as we outline in the report, is it 
was such a disorganized and problematic process that you had 
people who didn't know information making substantive edits to 
a letter, along with people who did know information providing 
inaccurate information.
    Sorting out how that letter ended up the way it did and 
blaming one person or two people for the particular information 
that came forward was the difficulty we had. It was such a 
problematic process, as we try and lay out, that you couldn't 
disentangle, from our standpoint, all the different pieces as 
to who offered what and how changes were made. That was the 
difficulty we had with the intent issue.
    Chairman Issa. Thank you.
    Mr. Cummings, do you have any closing remarks?
    Mr. Cummings. Yes, I just have one question.
    Since I was just listening to the question the Chairman 
asked, on page 395 of the report the inspector general's report 
did not find that senior Justice Department officials engaged 
in an intentional effort to mislead Congress. Instead, the 
inspector general found ``Department officials relied on 
information provided by senior component officials that was not 
accurate.'' I am reading that from your report.
    Mr. Horowitz. That is correct.
    Mr. Cummings. And that goes to what you were just saying?
    Mr. Horowitz. Right.
    Mr. Cummings. I see.
    Mr. Horowitz. And the problem is they were getting 
information in some instances was inaccurate, in some instances 
was accurate, and then the people finally drafting the letter, 
who didn't know the underlying factual scenario, were actually 
making changes that they didn't realize were substantive to the 
letter.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    In closing, this concludes a major chapter in Fast and 
Furious and the false statements made to Congress, particularly 
to Senator Grassley afterwards. As we turn the page, it is this 
Committee's hope that we will, in the coming days, see a level 
of cooperation that we have not thus seen. I was encouraged 
that the 300 or so pages that the attorney general personally 
said he would give me if I dropped further action on the 
subpoena were delivered without that subpoena being dropped. 
Notwithstanding that, I hope, in the days to come, that most, 
if not all, of those 100,000 pages that were made available to 
you, Mr. Horowitz, would be made available to this Committee, 
or, in the alternative and perhaps better, a willingness by the 
attorney general to allow a side-by-side evaluation by our 
Committee so that we could save the redundant time that you and 
your staff have used a great deal of in gleaning the facts and 
figures of these documents that we haven't seen. It would be 
hopeful that that kind of willingness to have our investigators 
see what you have seen would in fact allow this to come to a 
quicker close and perhaps eliminate the need for a protracted 
fight in the courts.
    Lastly, I look forward to the American people having an 
opportunity to read as much of the material as can be made 
unsealed as possible. I believe the American people and the 
Terry family have an absolute right to have as much 
transparency as possible. I think particularly when we look at 
the failure of the safeguards of the Fourth Amendment rights, 
as you so aptly said, that, in fact, all groups, groups who 
have nothing to do with Fast and Furious, but have everything 
to do with civil liberties, are going to want to know how these 
failures occurred in detail and, like the Ranking Member said, 
in a nonpartisan way we are going to want to make sure there is 
change so this does not happen again.
    I might note that ATF is not the only law enforcement 
agency that requests wiretaps. Wiretaps are requested on a 
daily basis from many organizations. Through this 
investigation, I have, as a non-lawyer, gleaned a better 
understanding that wiretaps are presented to judges normally as 
a nearly complete decision. Judges rely on the honesty and 
integrity of the process at the Justice Department in order to 
authorize these. That does not mean they don't have the right 
to question or to reject, but for the most part they are 
quickly dispensed with based on a trust that the documents are 
complete. Often, judges have told me that in fact their clerks 
look through a number of these and they rely on the 
completeness of that.
    To me, that says that the American people's constitutional 
protections are perhaps delegated to individuals who ultimately 
do not exist in the statute as the responsible parties. I think 
Mr. Horowitz's statement of his own experience at a time when 
he was reading these wiretap requests tells us that this has 
not always been so much a beneath me, even though the statute 
requires me standard. For that reason, both for those of us on 
both committees, Judiciary and Oversight, I pledge to work with 
both those committees to see that there is strict adherence to 
the statute in the future. And we do so not because of the 
Terry family's suffering, but, in fact, because the American 
people have a right to expect that government respects greatly 
the limited and necessary invasion into people's privacy, and 
that it must be both necessary and limited.
    In the case of Fast and Furious, it was not necessary. And 
if nothing else has been told, the understanding that these 
operations continued long after a wiretap was not the source of 
additional information was a lesson.
    Lastly, I would be remiss if I didn't think Mr. Horowitz 
and your entire team who have worked tirelessly for perhaps 
more months than some people would like, including those of you 
who worked on it for so many months. But I think for the Terry 
family, who is trying to deal with the striking down of their 
son, their brother, their cousin, at the tender age of 40, for 
those over here, very tender age of 40, in a way that he 
shouldn't have been, this will bring partial closure, and for 
that I would like to thank you and I know the Terry family 
would like to.
    With that, I thank Mr. Cummings for his efforts today. I 
thank all the members who participated.
    And, Mr. Horowitz, again, for those not sitting behind you 
and the many who have worked so long, please express our thanks 
for your thorough and complete work.
    With that, we stand adjourned on this and we will 
immediately reconvene, after you leave, for a quick markup.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6369.014
    
    [GRAPHIC] [TIFF OMITTED] T6369.015
    
    [GRAPHIC] [TIFF OMITTED] T6369.016
    
    [GRAPHIC] [TIFF OMITTED] T6369.017
    
    [GRAPHIC] [TIFF OMITTED] T6369.018
    
    [GRAPHIC] [TIFF OMITTED] T6369.019
    
    [GRAPHIC] [TIFF OMITTED] T6369.020
    
    [GRAPHIC] [TIFF OMITTED] T6369.021
    
    [GRAPHIC] [TIFF OMITTED] T6369.022
    
    [GRAPHIC] [TIFF OMITTED] T6369.023
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
